<html>
<title> - USDA CIVIL RIGHTS</title>
<body><pre>[Senate Hearing 106-]
[From the U.S. Government Publishing Office]


                                                   S. HRG 106-1012
 
                           USDA CIVIL RIGHTS
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                           SEPTEMBER 12, 2000

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov







                           U.S. GOVERNMENT PRINTING OFFICE
70-527                              WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  RICHARD G. LUGAR, Indiana, Chairman

JESSE HELMS, North Carolina          TOM HARKIN, Iowa,
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  THOMAS A. DASCHLE, South Dakota
PETER G. FITZGERALD, Illinois        MAX BAUCUS, Montana
CHARLES E. GRASSELEY, Iowa           J. ROBERT KERREY, Nebraska
LARRY E. CRAIG, Idaho                TIM JOHNSON, South Dakota
RICK SANTORIUM, Pennsylvania         BLANCHE L. LINCOLN, Arkansas
GORDON SMITH, Oregon                 ZELL MILLER, Georgia

                Keith Luse, Staff Director/Chief Counsel

            David L. Johnson, Chief Counsel for the Minority

             Robert E. Sturm, Chief Clerk for the Minority

                     Mark Halverson, Staff Director

                                  (ii)







                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

USDA Civil Rights................................................    01

                              ----------                              

                      Tuesday, September 12, 2000
                    STATEMENTS PRESENTED BY SENATORS

Lugar, Hon. Richard G., a U.S. Senator from Indiana, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    29
Baucus, Hon. Max, a U.S. Senator from Montana....................    09
Cochran, Hon. Thad, a U.S. Senator from Mississippi..............    03
Conrad, Hon. Kent, a U.S. Senator from North Dakota..............    05
Lincoln, Hon. Blanche L., a U.S. Senator from Arkansas...........    26
Miller, Hon. Zell, a U.S. Senator from Georgia...................    02
Smith, Hon. Gordon, a U.S. Senator from Oregon...................    04
                              ----------                              

                               WITNESSES
                                Panel I

Robertson, Bob, Associate Director, General Accounting 
  Office, Washington, DC, accompanied by Jerilynn B. Hoy, 
  Assistant 
  Director, Resources, Community, and Economic Development 
  Division, 
  General Accounting Office......................................    07
Viadero, Richard, Inspector General, USDA, Washington, DC, 
  accompanied by James R. Ebbitt, Assistant Inspector General, 
  USDA...........................................................    05

                                Panel II

Fiddick, Paul, USDA Assistant Secretary for Administration, 
  Washington, DC, accompanied by Rosalind Gray, Director, Office 
  of Civil Rights, and David Winningham, Chief Operating Officer, 
  Office of Civil Rights.........................................    19
 Rawls, Charles R., General Counsel, USDA, Washington, DC........    20

                               Panel III

Boyd, John, President, National Black Farmers Association, 
  Baskerville, 
  Virginia.......................................................    34
Carranza, Juanita, Lambert, Montana..............................    41
Connor, Harold, Upper Marlboro, Maryland, accompanied by Joseph 
  D. Gebhardt, Esq...............................................    44
Lucas, Lawrence, USDA Coalition of Minority Employees, 
  Washington, DC.................................................    39
Pires, Alexander, Esq., Conlon, Frantz, Phelan and Pires, 
  Washington, DC.................................................    48
Zippert, John, Director of Operations, Federation of Southern 
  Cooperatives, and Chairman of the Board, the Rural Coalition, 
  Epes, Alabama..................................................    37
                              ----------                              

                                APPENDIX

Prepared Statements:
    Lugar, Hon. Richard, G.......................................    62
    Harkin, Hon. Tom.............................................    64
    Baucus, Hon. Max.............................................    68
    Smith, Hon. Gordon, H........................................    66
    Boyd, John...................................................   138
    Carranza, Juanita............................................   212
    Connor, Harold...............................................   216
    Fiddick, Paul................................................   124
    Lucas, Lawrence..............................................   188
    Pires, Alexander.............................................   229
    Robertson, Bob...............................................   114
    Viadero, Roger C.............................................   072
    Zippert, John................................................   141
Document(s) Submitted for the Record:
    Robb, Hon. Charles...........................................   234
    Letters, Affidavits, and Complaints..........................   236
Questions and Answers:
    From Sen. Charles Robb to Mr. Fiddick and Mr. Rawls..........   540



                           USDA CIVIL RIGHTS

                              ----------                              


                      TUESDAY, SEPTEMBER 12, 2000

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m., in room 
SR-328A, Russell Senate Office Building, Hon. Richard G. Lugar, 
chairman of the committee, presiding.
    Present or submitting a statement: Senators Lugar, Cochran, 
Smith, Harkin, Conrad, Baucus, Lincoln, and Miller.

  STATEMENT OF HON. RICHARD LUGAR, A U.S. SENATOR FROM INDIANA

    The Chairman. This hearing of the Senate Agriculture 
Committee is called to order. The committee strives to continue 
its work this morning to help solve the problem of 
discrimination at the United States Department of Agriculture. 
We have held meetings with USDA officials and we have enlisted 
the help of the General Accounting Office. When I met with 
Secretary Glickman in October last year, I told him that this 
issue was of the utmost importance to me personally and I 
received his word that he was doing all he could to address the 
situation.
    As part of this committee's oversight responsibility, we 
have consistently looked at the management of USDA programs and 
made suggestions on how to better manage the department's 
resources. The problem of systemic discrimination, however, 
does not lend itself easily to a management critique. The 
troubles at the USDA require more than a new computer system or 
a business process.
    Many of these problems will be discussed today and they 
stem from personal behavior that is difficult to eliminate in a 
department of more than 100,000 employees. However, it is the 
duty of this committee to ensure that all laws and policies are 
strictly followed and that those who believe that they have 
been discriminated against receive appropriate and speedy 
resolution of their grievances.
    In recent years, there has been an increasing number of 
class action lawsuits and administrative complaints against 
USDA alleging discrimination. These lawsuits and complaints are 
of two types: program complaints and employment discrimination 
complaints. The program complaints are those involving members 
of the public who are the participants in USDA programs. The 
second type involve employees of the department who believe 
they have been victims of some type of discrimination.
    Today's hearing includes witnesses with information related 
to both of these types of discrimination. We will hear from Mr. 
John Boyd, President of the National Black Farmers Association; 
Mr. John Zippert, the Director of Operations for the Federation 
of Southern Cooperatives and chairman of the board of the Rural 
Coalition; Mr. Lawrence Lucas representing the USDA Coalition 
of Minority Employees; Mr. Harold Connor of Upper Marlboro, 
Maryland; Mr. Alexander Pires, an attorney in Washington, DC; 
and Ms. Juanita Carranza of Lambert, Montana.
    Our second panel will include Mr. Paul Fiddick, the 
Assistant Secretary for Administration, USDA; Mr. Charlie 
Rawls, the USDA General Counsel; Ms. Rosalind Gray, the 
director at the USDA Office of Civil Rights.
    On our first panel we will hear testimony from Mr. Roger 
Viadero, the USDA Inspector General, and from Mr. Bob Robertson 
of the U.S. General Accounting Office. As their testimony will 
indicate, this is a problem that has been thoroughly studied, 
and since 1997, the USDA Inspector General has performed at 
least eight reviews evaluating the department's efforts to 
solve the complex civil rights problems at the department.
    The General Accounting Office has also studied the issue 
and both OIG and GAO made numerous recommendations to help 
solve the problems. The most troubling aspect of these reports 
is how few of these deficiencies identified by either OIG or 
GAO in previous reports are ever corrected. Despite these 
reports and repeated efforts by USDA officials, the problems 
persist. Effective managers are not being hired to solve the 
problems and employees are merely being shuffled from agency to 
agency in an appearance of problem solving and management 
revamping.
    This missing link here seems to be one of accountability 
from the highest level of management to the county supervisor 
in the field who fails to adequately service an African 
American farmer's loan. Respect for the civil rights of all 
Americans is of paramount importance to me and all members of 
our committee. We are committed to doing all that we can to 
solve these problems at USDA. With this in mind, I would like 
our witnesses to focus on solutions to the problems and 
solutions that can bring accountability into the equation.
    [The prepared statement of Senator Lugar can be found in 
the appendix on page 62.]
    I want to before asking for the testimony of our witnesses 
to recognize that a new member of the committee is with us this 
morning, Governor Zell Miller of Georgia, now Senator Zell 
Miller of Georgia. He has been recently sworn in and has chosen 
to be a part of our group and we welcome him and are delighted 
that he is here at this hearing. Senator Miller, do you have 
any opening comment this morning?

   STATEMENT OF HON. ZELL MILLER, A U.S. SENATOR FROM GEORGIA

    Senator Miller. I will be very brief, Mr. Chairman, but I 
do want to say how very appreciative I am for your courtesy in 
allowing me to participate on this very important hearing even 
before becoming officially a member of this committee. 
According to the leadership staff, they should ratify that on 
the senate floor later today.
    I do not have to tell you, of course, of the long history 
of Georgia members on this committee, going all the way back to 
the 1870's with Senator John Gordon and, of course, Chairman 
Herman Talmadge whose portrait hangs in this room. Of course, 
my predecessor, Senator Coverdell.
    Agriculture is a huge industry in our state. It is the 
largest industry in our state. It accounts for one out of every 
six jobs and I am anxious to get started. This was my first 
choice of any committee to serve on. Senator Coverdell, I 
realize, had some big shoes that I will have to fill and 
although he was not from an agricultural area, he became a 
great student of agriculture and a real friend to the Georgia 
farmer and he will not soon be forgotten. I know that many 
members of this committee will miss his presence and I will try 
my best to fill those big shoes if I possibly can.
    I appreciate the chairman's willingness to address this 
issue. It is a very timely issue in Georgia and I look forward 
to learning more about it. I look forward to serving on this 
committee with you.
    The Chairman. Well, thank you very much, Senator Miller. We 
are really delighted that you are here and look forward to 
working with you. Let us recognize now Senator Thad Cochran for 
an opening committee.

STATEMENT OF HON. THAD COCHRAN, A U.S. SENATOR FROM MISSISSIPPI

    Senator Cochran. Mr. Chairman, thank you very much for 
organizing this hearing. It is appropriate that we hear from 
those who have looked into some of these charges and 
allegations and complaints to give us an overview of what kind 
of situation exists at the department on this very important 
subject. Some of us have been concerned that we are seeing 
additional complaints brought now on this same subject, not 
only for minority farmers, African American farmers, but also 
those who claim to be discriminated against because of their 
economic class or their lack of understanding of the 
sophisticated rules and laws that govern farm programs.
    To the extent that they have been disadvantaged, and that 
is an interesting point of view to be asserted in a court of 
law as a basis for a claim for damages, but a suit has been 
filed or is being filed in my state on that basis now and it 
will be interesting to hear from some of our witnesses on that 
subject, too. Are the rules and the laws being administered in 
a way or are they per se discriminatory for those who have a 
lack of understanding or sophistication no matter what their 
color is or race? This is an interesting thing that has arisen 
in our state now.
    We have tried to make available through the Appropriations 
Committee funds for the department to administer the settlement 
of claims that have been brought. It will be interesting to 
hear if there are additional funds needed for those purposes. 
At this point, we are trying to resolve differences between the 
House and Senate agriculture appropriations bills. We are 
meeting with administration officials and I am not personally 
aware of any special need at this point for additional funds 
above and beyond what is in the Senate passed bill, but that 
would be something that we would like to have in this record as 
well, if a witness could make that available to us.
    Mr. Chairman, thank you very much for recognizing me and 
let me also congratulate the senator from Georgia on his 
selection of the Agriculture Committee. When I came to this 
committee, I remember Herman Talmadge was sitting in the chair 
Senator Lugar occupies now and he said and this is a unique 
committee. It is not a partisan committee. We do not have votes 
in this committee that are based on partisan considerations, 
but he had just been elected chairman on the basis of a 
partisan vote. He said it in a very convincing way and I 
believed him.
    [Laughter.]
    Senator Cochran. We welcome you, Senator.
    The Chairman. Well, I believed him, too.
    [Laughter.]
    The Chairman. Without carrying this on unduly, Senator 
Talmadge sat about here. Senator Leahy and I sat close to where 
the camera is at the back door and the table was that long and 
one of your predecessors, Senator Cochran, Senator Eastland of 
Mississippi, sat just to the right of Senator Talmadge and both 
were enveloped in smoke so that they were not easily seen by 
those of us nor could they see us apparently.
    [Laughter.]
    The Chairman. Times have changed and one of the nice 
changes has just entered the room likewise and that is Senator 
Gordon Smith of Oregon. He has selected this committee and we 
are grateful that is the case and he will be joining us today 
for this hearing. As Senator Miller has pointed out, there has 
not been official confirmation of these appointments, but it 
will occur later in the day and there is important work to be 
done. Senator Smith, we welcome you to the committee. Do you 
have any opening comment this morning?

   STATEMENT OF HON. GORDON SMITH, A U.S. SENATOR FROM OREGON

    Senator Smith. Just, Mr. Chairman, I will have a statement 
I would like to enter in the record and I would also just want 
to say what a privilege it is to be on your committee, the 
Agriculture Committee, and I can think of few industries closer 
to my own heart than agriculture and it remains a cornerstone 
of my state's economy and so if I can help those who make their 
living from the land by serving on this committee, if I can do 
that better, then I am thrilled to be here. I also express the 
concern of others here that when it comes to civil rights, that 
is another issue laid on top of a great industry. We got to 
make sure that it is enforced and people's rights are protected 
regardless of their race or their gender and so I am very 
pleased to be here this morning, sir.
    [The prepared statement of Senator Smith can be found in 
the appendix on page 66.]
    The Chairman. Thank you very much, Senator. Senator Conrad, 
do you have an opening comment?

STATEMENT OF HON. KENT CONRAD, A U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Just very briefly, Mr. Chairman. Thank you 
for holding this hearing. Obviously, the cases that involve 
American Indians have a major impact in my state and I also 
want to thank the chairman for accommodating my request that we 
have as a witness somebody who is deeply involved in the filing 
of that litigation. I appreciate that accommodation very much 
and I also want to welcome Senator Miller and Senator Smith to 
this committee. You will find that this is a collegial 
committee and one where members do seek to work together.
    Obviously, there are regional differences. There are at 
times, although we hope not frequently, partisan differences, 
but most of all, this is a committee that does work together in 
a very productive way and we welcome you. We are glad you are 
here.
    The Chairman. Thank you very much, Senator Conrad.
    The Chairman. Now we would like to hear from the witnesses. 
Let me ask each of our witnesses in each of the three panels to 
attempt to summarize your comments in a 5-minute period, and I 
know this is difficult and the chair will try to be lenient so 
that you are not cutoff in mid-flight, but this will 
accommodate the possibility of raising questions by senators 
who are here and those that will be coming.
    We will have to take a break at ten o'clock for a roll call 
vote which has been declared and we know that a hiatus will 
occur at that point. We will proceed as far as we can until 
then and then we will not be interrupted after that first roll 
call vote. I would like to call now upon Mr. Viadero first and 
then Mr. Robertson second for your testimony. Mr. Viadero.

     STATEMENT OF ROGER VIADERO, INSPECTOR GENERAL, USDA, 
                         WASHINGTON, DC

        ACCOMPANIED BY JAMES R. EBBITT, ASSISTANT INSPECTOR 
            GENERAL, USDA
    Mr. Viadero. Good morning, Mr. Chairman, and members of the 
committee. I appreciate the opportunity to be here today to 
testify about our work on the department's processing of 
complaints of discrimination. With me today is Mr. James R. 
Ebbitt, Assistant Inspector General for Audit.
    Mr. Chairman, I have prepared a statement which I would 
like to submit for the record and summarize here this morning.
    The Chairman. It will be published in full in the record.
    Mr. Viadero. Thank you, sir. Over the past three and a half 
years, the Office of Inspector General has performed eight 
reviews of the department's processing of civil rights 
complaints, all at the direction of Secretary Dan Glickman. Our 
reviews were completed over seven phases and resulted in eight 
reports and two internal memoranda, all of which contained a 
total of 119 recommendations.
    Our most recent reviews which constituted Phase VII of our 
report resulted in two reports issued simultaneously in March 
of this year. Both concerned the that Office of Civil Rights. 
One reported on the office's processing of complaints of 
discrimination in program benefits and the other on its 
processing of complaints in employment. The story these reports 
tell is one of a staff that is demoralized and inefficient and 
of a management that never got a firm hold on a system it 
inherited but that resisted recommendations for improvement.
    For the Office of Civil Rights, this has been a continuing 
story throughout all seven phases of our work. Complaints were 
not adequately tracked, case files were poorly maintained, and 
managers were not held accountable for deadline overruns.
    Open cases we reviewed dated back several years. Many of 
the problems we noted at the Office of Civil Rights during our 
most recent efforts were evident during the first review 
completed in February 1997. At that time, the Secretary had 
raised concerns about the integrity of the department's process 
for resolving discrimination complaints in farm programs. We 
found that the complaints system was in total disarray. 
Complaints were backlogged within the department and their 
status could not be determined. There were no controls to 
monitor and track complaints, no current regulations to 
standardize policy and operations, no effective leadership, and 
most of all no accountability.
    Our foremost recommendation to the Secretary at that time 
was to centralize control over the complaints process so that 
no agency was allowed to resolve complaints against itself. In 
response, the Secretary created the Office of Civil Rights. 
This office took control of the Farm Service Agency's program 
complaint system as well as its backlog of 530 complaints.
    Because there was no immediate action to clear this 
backlog, it continued to grow throughout 1997 and peaked at 
1,088 complaints. This number came to be known as the original 
backlog of program complaints. While the office concentrated on 
reducing this backlog, it simultaneously created another volume 
of cases that exceeded the department's 180 day deadline for 
case resolution.
    By March of 2000, the office had reduced the original 
backlog to 35 cases, but faced a new backlog of an additional 
454 cases.
    During our reviews of the Office of Civil Rights, it became 
clear that the office was not implementing critical 
recommendations we made. By our Phase V review, the office had 
not gained in efficiency and could not ensure that all 
complaints were being handled with due care. We concluded the 
office needed to transform its processing system completely and 
abandon component processing for case management processing.
    Assigning staff to processing components such as intake or 
adjudication resulted in fragmented workloads. Assigning staff 
to the entire processing cycle for each case promised a more 
cohesive system. Managers at the Office of Civil Rights agreed 
with this assessment, but by the time of our Phase VII review, 
they had yet to implement the case management processing 
system. Our concerns about the unreliability of the office's 
data base also continued through Phase VII. By then the office 
was providing the Secretary with statistics we found inaccurate 
as well as misleading.
    For example, these statistics suggested that the office 
processed a substantial number of complaints of employment 
discrimination made in the last three years. We found out these 
numbers--and that is shown on chart one, we found that these 
numbers included cases that other USDA agencies had processed.
    [Chart.]
    Mr. Viadero. The numbers allowed the office to assume 
credit in 1999 for cases it did not work as well as cases that 
were backlogged from previous years. Its own performance was 
even more erratic. Chart two.
    [Chart.]
    Mr. Viadero. Using the same flawed methodology, the office 
showed it had shortened its average processing time for 
employment complaints to 87 days. We found it actually took the 
office 222 days on average to process the complaints it 
accepted in 1999. We should also note that the so-called 
completion time of 222 days is based on only three cases. These 
three cases, the only ones the office both accepted and 
processed in 1999, were finally closed due to pending 
litigation and were never adjudicated by the Office of Civil 
Rights.
    Our Phase VII review showed little progress by the Office 
of Civil Rights in achieving the efficiency it needs to ensure 
the integrity of the complaints processing system. Unless the 
office implements a management plan that addresses effective 
leadership, customer focus and process reengineering, we 
question whether future complaints of discrimination will 
receive due care.
    In conclusion, Mr. Chairman, I would like to submit for the 
record a summary of the actions taken on the recommendations we 
made during our seven phases of reviews. I would like that 
submitted for the record, sir. Thank you, Mr. Chairman, for the 
opportunity to present these issues. I would be happy to answer 
any questions you or other members of the committee may have at 
this time.
    The Chairman. Thank you very much, sir. The summary you 
have entered will be accepted in the record and published in 
full.
    Mr. Viadero. Thank you, sir.
    [The prepared statement of Mr. Viadero can be found in the 
appendix on page 72.]
    The Chairman. Mr. Robertson.

    STATEMENT OF BOB ROBERTSON, ASSOCIATE DIRECTOR, GENERAL 
               ACCOUNTING OFFICE, WASHINGTON, DC

        ACCOMPANIED BY JERILYNN B. HOY, ASSISTANT DIRECTOR, 
            RESOURCES, COMMUNITY AND ECONOMIC DEVELOPMENT 
            DIVISION, GENERAL ACCOUNTING OFFICE
    Mr. Robertson. Good morning, Mr. Chairman, members of the 
committee. Thank you for inviting us to be part of these 
important hearings on USDA's civil rights program. Our 
statement today is based on a report that we issued last year 
and I am very fortunate to have with me today Jeri Hoy, who was 
responsible for leading the work that supported that particular 
report. I better put these on. Who knows what words will come 
out of my mouth if I do not.
    In fact, we reported that USDA was not processing civil 
rights complaints in a timely manner. We found that USDA had 
one of the worst records of the Federal agencies that we 
examined as far as the timely processing of employment 
complaints.
    We identified four long-standing problems that were 
impeding USDA's efforts to improve timeliness. First, USDA's 
Office of Civil Rights had experienced constant management 
turnover and reorganizations. We pointed out that between 
October 1990 and January 1999, the Office of Civil Rights had 
eight different directors. That is almost averaging one new 
director each year. To add to this instability, the 
department's civil rights program had been reorganized three 
times between 1993 and 1999 resulting in numerous changes at 
the division and staff levels.
    Second major problem we noted related to inadequate staff 
and managerial expertise. In 1997, the Civil Rights Action 
Team, which was a team of agency officials appointed by the 
Secretary to review civil rights issues, reported that USDA 
employees generally viewed the department's civil rights 
offices as a dumping ground for many staff who had settled 
their Equal Employment Opportunity complaints. This issue of 
inadequate staff expertise surfaced throughout the review and 
this is something we may want to come back to later.
    The third problem cited in our report was the Office of 
Civil Rights lacked clear, up-to-date guidance and procedures 
to govern the receipt, handling and resolution of its program 
and employment complaints. Those types of procedures are 
particularly important in the type of environment that USDA's 
Office of Civil Rights was working in at that time which was 
constant change of management.
    The guidance is fundamental to promoting department wide 
compliance with and standardization and effective enforcement 
of civil rights statutes.
    Finally our report noted that poor working relationships 
and communications within the Office of Civil Rights and 
between that office and other USDA entities also hindered the 
timely processing of civil rights complaints. Now in addition 
to these four problems which tended to stall efforts to process 
complaints quickly, we also pointed out that the department was 
not consistently using alternative dispute resolution 
techniques such as mediation to address workplace and other 
disputes. Federal law and regulations encourage the use of 
these techniques in resolving Federal workplace disputes and it 
is a way of heading off disputes before they become formal 
complaints.
    We made four recommendations to the Secretary of 
Agriculture to address the problems identified in our report. 
In commenting on the draft of the report, the Director of the 
Office of Civil Rights stated that the management weaknesses we 
cited were real and that our recommended changes were 
necessary. Further, she said that USDA was actively moving 
toward full adoption and implementation of these 
recommendations.
    In preparation for this hearing, we reviewed the status of 
USDA's implementation of our recommendations. Although more 
than 19 months have passed since our report was issued, USDA 
has not fully implemented any of the four recommendations. USDA 
officials noted, however, that the agency has drafted a long-
term improvement plan that is intended to systematically 
address the problems in the program. They expect to begin 
implementing the plan next month.
    In conclusion, Mr. Chairman, our 1999 report found that 
USDA's civil rights program had a long way to go before it 
achieved the Secretary's stated goal of making USDA the civil 
rights leader in the Federal Government. In recent months, USDA 
has taken some initial steps to address the department's 
chronic problems. Unfortunately, these plans will require long-
term implementation including additional funding for hiring and 
training personnel. As a result, it appears as if the 
Secretary's goal, at least in the short term, remains illusive. 
That concludes my statement, Mr. Chairman, and I will be happy 
to take any questions.
    The Chairman. Thank you very much, Mr. Robertson. Your 
statement, of course, will be published in full as the case of 
Mr. Viadero.
    [The prepared statement of Mr. Robertson can be found in 
the appendix on page 114.]
    Senator Baucus. Mr. Chairman.
    The Chairman. Yes, Senator Baucus.
    Senator Baucus. Might I just have a statement introduced in 
the record at this point?
    The Chairman. Yes.
    Senator Baucus. I have a hearing that starts at 9:30.
    The Chairman. Please proceed.

   STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM MONTANA

    Senator Baucus. I have a fairly long statement and it is 
pretty tough. It is tough because in my state in Montana there 
have been a lot of civil rights complaints and none of them 
have been resolved, none. I in my testimony, am going to give 
some of the same data that has already been given, but I just 
would like the department, those relevant in the department, to 
read my statement and to take it very seriously because in that 
statement I also ask that certain actions be taken including 
dates by when they believe some of these cases can be resolved.
    I am also going to give the department a weekly report of 
discrimination charges that I receive and I tell you it is 
many. There are many on that list. I apologize to a Montana 
witness that I will be unable to hear her testimony, but she 
has traveled by train to come here to plead her case and I hope 
she does not have to come to Washington, DC again because the 
record is just abysmal. I hope we can get it resolved. Thank 
you.
    The Chairman. Thank you, Senator Baucus. Your statement 
will be published in full at the beginning of the hearing with 
the opening comments of senators.
    [The prepared statement of Senator Baucus can be found in 
the appendix on page 68.]
    The Chairman. Now, I would like to ask all senators to 
restrain themselves likewise to five minutes in the question 
rounds. If there is need for a second round, we will do that, 
but the first time around, all of us try to stay within five 
minutes.
    Mr. Robertson, clearly you and Mr. Viadero have painted a 
very bleak picture of the reorganization of USDA's efforts. I 
am just curious. In your agency you take a look at various 
other agencies of government from time to time, I suspect, with 
regard to civil rights matters. Why is the USDA situation such 
a difficult one, both in terms of the numbers of cases that are 
currently being filed and the lack of resolution of the cases 
or the retention of personnel to do this work or to follow 
though by the management?
    In other words, is this a fair to middling situation in the 
Federal Government? Is it the bottom of the heap? What seemed 
to be the peculiar characteristics of this situation that we 
have not been able to grapple with?
    Mr. Robertson. Let me answer that question in two parts. 
Let us talk about some comparisons of USDA's record with other 
Federal agencies. We made those types of comparisons in our 
1999 report and we have some preliminary information to update 
that. In that 1999 report, we looked at data from EEOC in terms 
of various performance indicators of processing employment 
complaints in a timely process.
    We looked at the percentage of cases that USDA or OCR 
investigated that were done within the stated 180 day EEOC 
timeframe. We found that USDA had one of the worst if not the 
worst records of the agencies that we looked at in regard to 
meeting that particular timeframe. That was by the way for 1997 
statistics which were the most current available at the time we 
did our work. We updated that 1999 information in preparation 
for the hearings with some preliminary information from EEOC 
and basically found that in regard to that particular measure, 
the situation has not changed. They are still missing the mark, 
I believe, in about 99 percent of the--almost 100 percent of 
the cases in terms of conducting investigations within the 180 
day timeframe.
    We also in the older report, in the 1999 report, looked at 
another performance measure again for processing employment 
complaints. That measure was basically the time it took to 
resolve complaints that did not involve EEOC hearings. Again 
USDA, based on 1997, EEOC data was on the bottom of the pile. 
The preliminary information for 1999 indicates that there has 
been some improvement, but USDA is still far above the EEOC set 
standards and far above the government wide averages. That is 
the first part of the question on how the USDA is doing in 
regard to other agencies as far as employment complaints go.
    In regard to the why what makes USDA different, why are 
they where they are--that is much more difficult question to 
answer. We have had, as you have pointed out, several years of 
people going in and looking at this program and finding all 
sorts of problems, having all sorts of suggested fixes, 
including the CRAT report came out in early 1997, I believe, 
with 90 some odd recommendations. Roger and his crew have come 
up with a number of reports with recommendations for fixes. We 
have come up with a report with recommendations for fixes.
    Obviously this program is not lacking for fixes or 
suggested fixes for these problems. If I were king for the day 
and I were to say this is what you need to focus on, I would 
focus on something that both the OIG and GAO and the CRAT 
report have highlighted--that is upgrading the level and 
quality of the skills and experience and expertise in the 
Office of Civil Rights. If you get the right people in the 
right positions with the right skills, they are going to 
identify the problems and take the appropriate actions to 
mitigate them.
    The Chairman. Let me just ask in other agencies where 
similar problems have occurred, is this the way they solve it? 
In other words, they found new people, upgraded the whole 
status of the movement and proceeded on as opposed to us 
hearing testimony that we are not getting very good people in 
this agency? In fact, there seems to be a deterioration in 
morale, a turnover of people.
    You know we have committee oversight hearings on this 
situation annually. I can remember almost one a year each time 
that I have been chairman and we come up with many of the same 
problems, maybe compounded in terms of greater numbers. We are 
oversight people. We cannot reach in as philosopher kings any 
more than you can to wrench out the agency. I am frustrated as 
to how to be effective. Given these annual hearings, the 
expositions, they are terrible. Why the embarrassment I would 
think to the Secretary, the people managing the department, 
would be profound. The changes have not occurred.
    This is why I wonder if there is something extraordinarily 
different about USDA? Simply overwhelmed by the nature of the 
work that occurs in agriculture or some other factor that we 
have not examined?
    Mr. Robertson. I believe that there are lessons that can be 
learned by looking at how other Federal agencies do their 
business and, in fact, sometime this fall the EEOC is coming 
out or one of its task forces is coming out with a report that 
basically is a lessons learned, a best practices type report. 
That could be a starting point for USDA to look at to see how 
it could address some of its problems.
    Ms. Hoy. Can I add something? Actually the Postal Service 
is one agency that we have heard cited as a turnaround agency, 
where they had a lot of serious problems, and what they did was 
to start using alternative dispute resolution in a very 
consistent way and what that allowed them to do was to resolve 
workplace disputes before they became formal complaints. They 
have been using outside mediators, mediators from outside of 
the Postal Service, for the last four or five years apparently 
and the program has been very successful in reducing the number 
of formal EEO complaints.
    The Chairman. There is constructive relief if you move in 
those directions?
    Ms. Hoy. Yes.
    The Chairman. Senator Conrad.
    Senator Conrad. Thank you, Mr. Chairman. How many staff are 
there in the Office of Civil Rights in USDA?
    Mr. Robertson. I can give you ball park. When we did our 
report, there are roughly 120 people. That has increased 
slightly since that time and the budget was somewhere in the 
neighborhood of 13 million.
    Senator Conrad. How many cases do they have annually? Is 
that fairly reflective up here? Looks to be roughly in the 
range 750 to 950 a year?
    Mr. Robertson. In terms of the caseload for employment 
complaints, I can talk about the number that they had on hand 
at the end of fiscal year 1999, which was 1,680, roughly 1,700.
    Senator Conrad. That would be the current backlog?
    Mr. Robertson. That would be the number that were----
    Senator Conrad. Were pending?
    Mr. Robertson. Right.
    Senator Conrad. 1,700 at the end of 1999?
    Mr. Robertson. Right.
    Senator Conrad. I am interested in how many cases are 
brought a year? It looks to me up on your own chart here that 
you are looking on a yearly basis between 750 and 950. Would 
that be a correct conclusion from that chart?
    Mr. Viadero. Senator, that is not GAO's chart. That is the 
IG's chart and Mr. Ebbitt would be happy to answer that for 
you. Thanks.
    Mr. Ebbitt. Senator, that was the status for those years. 
The flaw in that particular chart on the left was what the 
Office of Civil Rights reported.
    Senator Conrad. Right.
    Mr. Ebbitt. What that reflects is cases essentially filed, 
not necessarily accepted. You have to draw that distinction 
because a filed case is not always accepted. Sometimes there is 
not enough information provided. The cases on the chart on the 
right is what we believe is what really happened in those 
particular years.
    Senator Conrad. I see. I see. Something less than?
    Mr. Ebbitt. That is correct.
    Senator Conrad. OK.
    Mr. Ebbitt. Also, Senator, this reflects program cases, not 
employee cases.
    Senator Conrad. Now, that is the next question I have. How 
many of these cases--how many of these----
    Mr. Ebbitt. I need to correct that. That is employee cases.
    Senator Conrad. Oh, that is employee cases.
    Mr. Ebbitt. Yes.
    Senator Conrad. That was my next question. How many of 
these, what percentage of these cases are employee cases? How 
much of these cases are program cases?
    Mr. Ebbitt. Again, Senator, I have just been corrected. 
These are all employee cases that are reflected here.
    Senator Conrad. That does not tell us program cases?
    Mr. Ebbitt. Those charts do not.
    Senator Conrad. When you gave me the number of 1,700 
pending at the end of 1999, did that include employee cases and 
cases that involved programs?
    Mr. Ebbitt. No, that was a figure that I gave----
    Senator Conrad. That is just employee?
    Mr. Ebbitt. That was a figure that I gave and that was for 
employees.
    Senator Conrad. Employees. Can you tell me how many of 
those are within the department itself? Are these all within 
the department itself?
    Mr. Ebbitt. Yes, these are USDA employment complaints, 
according to CR data that is.
    Senator Conrad. This is truly extraordinary and they cannot 
resolve those with 180 days. All of these cases that are 
reflected on these charts involve employees within USDA itself. 
Has anybody got what the number of program cases are?
    Mr. Ebbitt. As of December 1, 1999, Senator, we counted 897 
on the program side.
    Senator Conrad. That were pending?
    Mr. Ebbitt. That is correct.
    Senator Conrad. That was in addition to 35 that were still 
left over?
    Mr. Ebbitt. Thirty-three of the 35 have also been cleaned 
up as of March.
    Senator Conrad. Mr. Chairman, could I just offer I read 
something interesting in the paper this morning about what has 
been done within the District of Columbia by the new mayor. He 
has reached an agreement with about 90 percent, 80 or 90 
percent of the middle managers, that they would get a pay raise 
in exchange for giving up their appeal rights in terms of 
termination. Anybody could be removed for cause or because they 
were not performing in some way on two weeks notice, and I tell 
you I know this is controversial and some will consider it 
something that threatens employees.
    I tell you, part of the problem here is it is very hard 
within the Federal Government to remove people who are not 
performing, to change managers when people are not performing. 
I wonder if this is not a case where it would be a good 
experiment to see if we could not in USDA in this office do 
something along the lines of what the mayor and this city has 
done? You know my experience as a manager has been when things 
are not working well, there is one reason. It is the people 
involved.
    Every time I had a management problem when I ran a large 
state agency I found it was because I had the wrong person in 
the wrong slot. It did not mean they were not a good person. 
Sometimes it just meant they just were not prepared for the job 
that they had. Phase VII, Phase VII, the Inspector General has 
told us here and nothing much is happening. I personally 
believe we are going to have to go to some new approach if we 
are going to solve this problem.
    The Chairman. I thank the senator. Senator Cochran.
    Senator Cochran. Mr. Chairman, my questions are going to go 
to the program discrimination issue and I wonder in the 
testimony from our first two witnesses, have the program 
discrimination cases not been resolved just like the employment 
cases have not been resolved? Are those numbers about the same?
    Mr. Ebbitt. Senator, as I was indicating, our last count of 
program cases is around 897. In our testimony, when we started 
this process in November 1997, the backlog at that time was 
1,088. That is the so-called original backlog. Now that has 
been essentially worked down. They are very close to resolving 
or having dealt with most of those cases. Part of the problem 
in handling those cases then was the fact that you have more 
coming in and so the new ones as they were coming in, they were 
not being handled in a timely fashion because all the energies 
were being directed toward all those old ones. Roughly right 
now 897 is the number on the program side.
    Senator Cochran. Was there any effort made in your review 
of the GAO review to determine the adequacy of the remedy that 
is available for a program discrimination? What is your 
assessment of that?
    Mr. Ebbitt. Senator, we in--let me see which phase, I get 
my phases mixed up. In one of our reports we looked 
specifically at settlements, and was one of the charges made 
against the department is that once the settlement has been 
agreed to by the department and the complainant, then the 
settlement action was not always carried out. We found a mixed 
bag, if you will, in that particular arena. We did find 
evidence that settlements had been achieved and that actions 
were being carried forward. We did find some delays in carrying 
that agreed to process to fruition in some instances, but the 
real issue there was there were not that many settlement cases. 
A lot of cases just hadn't reached the end of the process.
    Senator Cochran. What about GAO? Did you undertake an 
assessment of that?
    Mr. Robertson. Yes. Our work looked primarily at the 
timeliness of the process itself, but I would like to go back 
to your earlier part of your question and some of your 
questions on the statistics and just make a comment. In 
preparing for this hearing, we tried to get some statistics 
that would give us an indication, a flavor of whether the 
timeliness of processing the program complaints, in particular 
the program complaints, had improved or, just exactly what the 
status was. While it seems that OCR has statistics, I am not 
comfortable in using those statistics right now to give you a 
flavor of what the progress has been and the OIG would be in 
the same boat.
    Again, it is an important thing to remember that the 
statistics that we are talking about here are kind of iffy at 
best and that is unfortunate.
    Senator Cochran. Was any conclusion reached by either 
investigative agency about whether the law ought to be changed 
or improved in any way that governs the handling of these 
cases? Is there something that we as a legislative committee 
should consider in terms of amendment to current law on this 
subject, the program complaint side I am addressing again?
    Mr. Viadero. Senator Cochran, I would like to answer your 
question and also get back to what Senator Conrad mentioned. 
You know as a manager, it is accountability. It is timeliness. 
It is not only doing the right things but doing things that are 
right and we find an absence of all of this in the operation of 
this office.
    Senator Cochran. What about the GAO on that subject?
    Mr. Robertson. We have no recommendations directed to 
legislative changes.
    Senator Cochran. One thing I have heard just from people 
who have reported to me some personal experiences in dealing 
with the department is the complexity of the complaint process. 
Is this something that in your view ought to be considered or 
addressed by the Congress or is there an adequate process, it 
is just the administration of the process that has broken down?
    Ms. Hoy. My thoughts are that it is primarily the 
administration of the process. I was thinking of the question 
that Chairman Lugar asked earlier about why are things so bad 
at USDA and it just strikes me that there are some agencies 
have poor personnel, others have poor systems, others have poor 
data, but with USDA it is across the board and that is why. 
That is the problem. It is just pervasive problems in almost 
every single area and it is hard to know where to start.
    Senator Cochran. My last question is provision for payment 
of attorney's fees; is this taken care of in the law 
adequately? Do attorneys get their fee from the settlement 
itself or is this paid over and above the reimbursement to a 
successful complainant? I wonder what the contingent fee basis. 
You know we had a lawyer down home and we said what is his 
contingent fee? What does that mean? He said, well, if he 
loses, he does not get anything. If he wins, you do not get 
anything.
    [Laughter.]
    Senator Cochran. I am just curious. I want to be sure that 
is not the situation here with these cases.
    Mr. Viadero. It is my understanding, Senator, that it is 
both ways. We have instances of both the contingent fee basis 
and a fixed fee basis.
    Senator Cochran. Thank you.
    The Chairman. Thank you very much. Senator Miller.
    Senator Miller. I do not have any questions.
    The Chairman. Senator Smith.
    Senator Smith. Mr. Chairman, I in preparation of this 
hearing, we contacted our staff in Oregon to find out what 
complaints they are having and talked to the local chapter of 
the NAACP, and if there is a positive note, at least in Oregon 
this is not a glaring problem, but as I contrast that with Mr. 
Viadero's statement, and I want to read it for emphasis:
    Throughout the seven phases of review the Office of Civil 
Rights has been a portrait of a dysfunctional agency. Its staff 
has remained demoralized through three major reorganizations. 
Management's attempts to improve the working environment have 
been perfunctory and its attitude toward accountability have 
been unenthusiastic. The case files were in no better condition 
in March 2000 than they were in February 1997.
    I guess do we need to start over? It sounds like you have 
got the wrong people and maybe also the wrong systems. That is 
what I am reading, Mr. Viadero.
    Mr. Viadero. We are not taking exception to any of that, 
Senator. We also would like to add we have all of this on our 
web site, all seven phases which would include Phase III which 
is 18 linear inches and is county by county throughout the 
United States on their civil rights statistics. I would like to 
add, though, when we walked in the first time, we found, by 
chance some files that were laying in a file drawer for years. 
Nobody ever looked at them. We actually had to construct an 
inventory of case files. There were files and there were papers 
in these files from Mr. Smith, Mr. Cochran, Mr. Lugar, Mr. 
Conrad, Mr. Miller right across the board in one file. The 
files had never been properly maintained.
    We have a picture of their automated filing system. It was 
a mobile filing system. They had a push cart from a Safeway 
store. The files were in total disarray. Now this is not a 
civil rights function. This is a basic management function of 
an office. I know that Mr. Conrad is a kindred spirit in 
accounting and you just do not run books and records this way. 
It is not a way to run a business and this is a business like 
anything else and it has to be accountable or we find bad 
business practices, if you will, and lack of accountability.
    Senator Smith. Can you correct me if I am wrong if I am 
misunderstanding the condition in the Pacific Northwest. Is 
there a problem there?
    Mr. Viadero. Not that we are aware of.
    Senator Smith. Have you located where the problems are most 
egregious? Is there an area of the country? Have you pinpointed 
it? Is it in Washington, DC? Is it in the Northeast? Is it the 
Midwest? Where are the problems the most egregious?
    Mr. Viadero. When I got back to our sampling in Phase II, 
and we did four certain areas, geographic areas of the country, 
such as Oklahoma because of its Native American concentration, 
such as San Joaquin County, California for having the only 
county with Asian farmer concentration. We did the greater 
Southwest basically from California right into your state, 
Senator Cochran, Mississippi, looking for Hispanics, of course, 
the Old Dominion, the greater South with its on the 
historically black farms.
    Senator Smith. Are you finding that where there are 
problems are they more personnel or are they more systems? Are 
they systemic problems or are they personnel problems?
    Mr. Viadero. We found no examples of systemic 
discrimination in any of our reviews.
    Senator Smith. Is it just personnel who just do not give a 
rip about civil rights?
    Mr. Viadero. Well, it is important to note that the county 
system, the county executive who is hired by thr county 
committee who in turn is elected by local farmers, how are you 
going to have discrimination if the farmers in the country are 
voting for the leader of the county. That is why we say it is 
not systemic. By the way, these people are not federal 
employees. They are quasi-government employees and they are 
outside the normal books and records of the department, if you 
will, and not subject to the merit systems that we have within 
the civil service.
    Senator Smith. Ms. Hoy mentioned that the Postal Service 
was an agency in difficulty and is the model you are pursuing 
to fix USDA; is that accurate or are there other agencies in 
the government that are really good examples of the enforcement 
of civil rights laws that we ought to be looking at here for 
USDA?
    Mr. Robertson. I think Jeri was alluding to the fact that 
there are some other Federal agencies that had some success 
particularly with alternative dispute resolution and Veterans 
Administration was one of those. I believe the Air Force is 
another.
    Senator Smith. Thank you, Mr. Chairman.
    The Chairman. Let me just followup a little bit on Senator 
Smith's question, and that is in the testimony that I see down 
here on county committees, problems and elections, a suggestion 
is that in the spirit of the Voting Rights Act, county 
committee procedures are seriously flawed. Voting participation 
averaged ten to 15 percent of eligible voters, only 5 percent 
participating in one South Carolina county. Up to 25 percent of 
the ballots disqualified because they were not filled out 
correctly and so forth.
    Now, Mr. Viadero, you are saying many of these 
discrimination complaints arise from decisions of these county 
committees; is that correct?
    Mr. Viadero. That is my understanding, sir, yes.
    The Chairman. That in trying to parse this situation a 
little bit, we have USDA down here in Washington with civil 
service people, merit and so forth, and we have USDA out in the 
field in various ways. As you point out, you have sort of a 
democratic system here which county committees are elected and, 
therefore, the voting procedures or how people come on to those 
committees or how people are kept out of the committees comes 
into play, I suspect. This may be a more complex situation then 
in trying to evaluate, getting back to Senator Conrad's 
suggestion that as in the case of the mayor of Washington, DC, 
you take some stringent action so that people can be fired and 
removed and move out of the picture.
    What we are seeing here, I suspect, is the question at the 
grassroots in many cases in which people have been elected 
quite apart from these folks down at USDA in the civil service 
or many of us around this table. Now how do you begin to deal 
with all of that?
    Mr. Viadero. Well, this will reference now back to Senator 
Smith's question so far as what we see on a systemic basis. Let 
me give you an example of how this system works. Mr. Lugar, 
since you are the chairman here, we are going to make you the 
CED, and Mr. Cochran is his outreach coordinator, and Mr. 
Cochran--I am sorry--Mr. Conrad as a farmer. Well, the chairman 
likes Mr. Conrad. OK. Mr. Cochran, the outreach----
    Senator Conrad. You got a good start.
    [Laughter.]
    Mr. Viadero. I need help wherever I can get it. Mr. 
Cochran, the outreach coordinator, will call Mr. Conrad up and 
say, Mr. Conrad, the final date for filing these applications 
is a week from today. Now, Mr. Smith, Mr. Lugar is sort of 
neutral on you. Mr. Cochran just does not call you. You have 
been given your packet with the dates on it. That is the type 
of impetus that we see. Now can you say that that is systemic, 
that that is intentional? I dare say you could not. We have not 
been able to find it.
    That is probably the most egregious thing/example of what 
we found and that is very simplistic. Again, to quote a great 
guy, my son, ``it ain't rocket science,'' and he is a rocket 
scientist. It is the best I can give you.
    The Chairman. Senator Conrad.
    Senator Conrad. Mr. Chairman and those who are here as 
witnesses, I go back to every time as an administrator I 
encountered a problem like this, it went right to the question 
of the people that I had in the positions of responsibility. I 
found systemic problems. It is amazing how they get resolved 
when you have the right people in the right positions because 
they figure out how to change the system to make it work. You 
know I have been told we heard this morning that this office 
has been used as a dumping ground. That is the reputation of 
this office. That disgruntled employees have been moved into 
these positions and now we got a situation where the job is not 
getting done.
    Now the evidence is overwhelming. The job is not being 
performed. I do not want to be harsh, but, when you have gone 
through seven phases of review and nothing is happening to fix 
it, somebody has got to be held accountable. As a manager, I 
would hold the people who are in positions of responsibility 
accountable. They are the ones who have the obligation to 
produce results and they have failed, and they have failed 
miserably and there can no longer be any question about it. I 
would advocate that we get new leadership and they have the 
power to get people in positions of responsibility who do the 
job. That is, an obligation we have as an oversight committee. 
We cannot be the administrators obviously. We should send a 
clear message that this is it.
    Now we have all the reviews that we need to have. There is 
a failure. The people who are there in positions of 
responsibility ought to be held accountable. That is not being 
unfair. That is not being harsh. That is setting standards and 
setting goals and holding people accountable.
    Could I just close with a question to Mr. Viadero? What 
would you do in this circumstance? If you had the power to try 
to clean up this mess, what would you do? What are the two or 
three steps that you would take immediately?
    Mr. Viadero. Well, some of the steps have been taken in the 
very recent past by Assistant Secretary for Administration 
Fiddick whom you are going to hear from on the next panel. He 
appointed a fellow by the name of David Winningham as Deputy 
Director for Civil Rights, as the title is called, in the 
Office of Civil Rights, and Mr. Winningham, much to his credit, 
has gone in and established some basic management controls and 
met with people and is getting this backlog down. I do not 
think we can say scrap the system, scrap the people. Again, it 
is a people issue. OK. Mr. Winningham appears to have the right 
mix, if you will, of people skills and management skills and 
also the support of the Assistant Secretary.
    Senator Conrad. Does he have the ability to move out people 
who just are not performing? You know sometimes you just have 
people who are not performing and does he have the ability to 
remove people who are not performing?
    Mr. Viadero. I am assuming that Mr. Fiddick would support 
him if that is the final decision that they make.
    The Chairman. Thank you very much. Are there other 
questions of this panel by senators? If not, we thank you very 
much for your testimony and we hope that the next panel will 
have some satisfying answers and then we will have a third 
panel of witnesses that we have already mentioned. The chair 
would like to mention also that there will not be vote at 10 
a.m., and so that is gratuitous so that we can proceed without 
interruption.
    The Chairman. We now have Mr. Paul Fiddick, the USDA 
Assistant Secretary for Administration, accompanied by Ms. 
Rosalind Gray, Director of the Office of Civil Rights, and Mr. 
David Winningham, Chief Operating Office of the Office of Civil 
Rights; and Mr. Charles R. Rawls, USDA General Counsel.
    We welcome the next panel and I will ask you to testify in 
the order that I introduced you, first of all, Mr. Fiddick and 
Mr. Rawls. Please try to summarize your comments in five 
minutes more or less, and then we will have more extended 
conversation as questions come from senators. Mr. Fiddick.

    STATEMENT OF PAUL FIDDICK, USDA ASSISTANT SECRETARY FOR 
                 ADMINISTRATION, WASHINGTON, DC

        ACCOMPANIED BY ROSALIND GRAY, DIRECTOR, OFFICE OF CIVIL RIGHTS, 
            AND DAVID WINNINGHAM, CHIEF OPERATING OFFICER, OFFICE OF 
            CIVIL RIGHTS
    Mr. Fiddick. Thank you, Chairman Lugar. We have a longer 
consolidated statement for Ms. Gray, Mr. Rawls and myself that 
I would like to have entered into the record.
    The Chairman. It will be made part of the record in full.
    Mr. Fiddick. Thank you, sir. Good morning, Mr. Chairman, 
members of the committee. Thank you for inviting me before your 
committee today. It was almost exactly a year ago that I 
appeared before this committee for my confirmation hearing. I 
was sworn in as Assistant Secretary for Administration on 
November 16 of last year. Although new to the department, I 
have become well acquainted with USDA's troubled civil rights 
history. The Secretary and I believe that we are making some 
progress addressing the circumstances that give rise to 
complaints, on the one hand, and in processing the complaints 
we receive, on the other.
    Nevertheless, we are humbled by the task that remains. 
Beginning with our Secretary, we strive to hear the message 
that employees and customers are sending us. The Secretary, 
those of us here, and administrators of our USDA agencies have 
maintained an ongoing dialog with groups and individuals 
representing employees, customers and other stakeholders. We 
have honestly endeavored to maintain an open door policy.
    Last year, we received 1,261 program discrimination 
complaints. We are projecting about 650 complaints in fiscal 
year 2000. In fact, we will receive fewer program and 
employment complaints this year than any year since 1997. Let 
me be clear. Acts of discrimination and the complaints they 
represent are an anathema and unacceptable to USDA in any 
number.
    Over the past five years, USDA has closed an average of 
about 750 EEO complaints a year. Those are employment 
complaints. This is more than all but three other cabinet 
agencies. Unfortunately, we have been receiving an average of 
about 850 EEO complaints a year for the same period. The time 
it takes us to process complaints is inexcusably long. If 
justice delayed is justice denied, then we are not doing 
justice by our customers and employees. Now here is what we are 
doing about it.
    Mr. Chairman, as you may remember from my confirmation 
hearing, I am new to government. I spent more than 25 years of 
my career in private industry, most of that time in top 
management. When I arrived at USDA, Secretary Glickman 
instructed me to use my business experience to develop an 
enduring solution to the operational end of our civil rights 
problems. I approached this assignment as I would a business 
problem, one where an operating unit was not performing up to 
expectations. I recommended and the Secretary approved a plan 
to create a new position in the Office of Civil Rights that I 
borrowed from the private sector, that of chief operating 
officer.
    This divides Civil Rights into two distinct areas. One, 
complaints processing and administration headed by the COO, a 
career senior executive; and two, the policy, regulatory and 
legislative functions led by the senior political official. The 
latter role is filled by our Civil Rights Director, seated on 
my left, Rosalind Gray. In April I named David Winningham, a 28 
year USDA employee with an extensive management background, to 
the new COO position. He is seated on my right. Both of these 
positions report directly to me as Assistant Secretary.
    The past five months, we have set about developing a long-
term improvement plan, a zero-based approach to determining the 
staff and time resources necessary to fundamentally and 
permanently improve our civil rights operations. The plan is a 
comprehensive collaborative work that includes efficiency 
studies and benchmarking to the best practices of other Federal 
agencies.
    The draft management plan was delivered in August and to 
the extent of our resources the finished plan will be rolled 
out in the next 30 days. Secretary Glickman has made it 
abundantly clear that in the area of civil rights, the status 
quo is simply unacceptable. We are using all of our intellect 
and our energies to solve these historic problems in a way that 
will survive beyond this administration and that will provide 
responsible social justice for USDA employees and the public 
today and in the future. Thank you, sir.
    [The prepared statement of Mr. Fiddick can be found in the 
appendix on page 124.]
    The Chairman. Thank you very much, Mr. Fiddick. Mr. Rawls.

     STATEMENT OF CHARLES R. RAWLS, GENERAL COUNSEL, USDA, 
                         WASHINGTON, DC

    Mr. Rawls. Good morning, Mr. Chairman. I am pleased to be 
here this morning. During the 2-years since this committee 
recommended my confirmation as general counsel, I have spent a 
considerable amount of my time, probably the majority of my 
time, working on civil rights issues, helping the Secretary 
carry out his mission, his vision to address and improve civil 
rights at the department. I certainly share his strong 
commitment to civil rights for all employees and program 
participants and I believe as the Secretary does that USDA can 
and should become the civil rights leader in the Federal 
Government. Obviously, from what you have heard this morning, 
we have a long way to go.
    My office acts as the Secretary's legal staff. We advise 
the Secretary and agency personnel on the full range of legal 
issues. Our lawyers provide assistance on everything from 
procurement to regulatory process, a statutory interpretation, 
any number of things. We do represent the Secretary in some 
legal proceedings, provide legal opinions for the department, 
that sort of thing, but USDA is represented in the Federal 
courts, of course, by the Department of Justice.
    Of note to the committee, as recommended by the Civil 
Rights Action Team, the CRAT report, our office did establish a 
special division devoted to Civil Rights. It is staffed with a 
small but experienced and talented group of lawyers who are 
working very hard on a broad range of legal matters associated 
with civil rights. This effort was greatly supported by the 
Secretary and, of course, the Congress. Senator Cochran did 
provide some additional funding to staff the office which is 
very difficult, as this committee knows in this time of tight 
discretionary budgets, but I would want all of you to know that 
the Civil Rights Division is staffed by individuals with 
outstanding records, excellent credentials and impressive 
experience.
    They are working very hard to see that our civil rights 
laws and policies are carried out in an effective and efficient 
manner at USDA. We accept our responsibility seriously and with 
enthusiasm with respect to civil rights, but our duties are not 
easy. We often must raise difficult questions. We take 
unpopular positions. We make hard decisions which quite often 
put us at odds with someone, either within the department or 
outside of USDA, but the requirements of the law, fundamental 
elements of fairness and a concern for the due process rights 
of all concerned will continue to guide our every action.
    Our statement discusses briefly the settlement of the 
Pigford class action and I will just touch on that for a 
moment. This was a class action brought on behalf of African 
American farmers throughout the country. It is indeed an 
historic settlement because it offers the promise of resolution 
and closure to so many who have felt that they were wronged for 
so long.
    As a staff member in the House of Representatives during 
the 1980's, I became keenly aware of many of the complaints of 
discrimination at USDA by African American farmers. These 
complaints were deeply felt but difficult to prove. Many of the 
complaints were not meaningfully addressed or were certainly 
not addressed in a manner that reassured the complainant that 
his or her case had really been heard or decided on the merits. 
In conjunction with efforts by the Congress to waive the 
statute of limitations, it did make a settlement of this case 
possible. I believe that on balance the settlement provides a 
workable solution to some very difficult problems which had to 
be resolved in a legal forum which presents its own 
difficulties.
    It will provide an opportunity that many felt that they 
never had to be fairly heard. Under Track A of the settlement, 
some 20,000 individuals will have their claim reviewed by an 
objective neutral third party. Far about 18,000 claims have 
been adjudicated. 11,000 or a little better than 60 percent 
have been successful for the claimants. The Track B 
arbitrations handled under this settlement are under the 
exclusive jurisdiction of the Department of Justice and they 
are handling those cases.
    We are now working very hard with the court, the court 
appointed monitor, the Department of Justice, the plaintiff 
lawyers, to see that the settlement is implemented in a fair, 
efficient and timely manner. It has been a challenge, I will 
tell you. The number of class members turned out to be much, 
much greater than expected. Simply establishing the process and 
dealing with the class of this size has been a monumental 
effort for everyone.
    We will continue to see this as a challenge. We will rise 
to meet that challenge and find ways to implement the 
settlement in a fair way and in a way that is helpful and fair 
to the claimants to the maximum extent possible. Mr. Chairman, 
many employees and managers at USDA do share the Secretary's 
commitment to civil rights, as I do. Some are still insensitive 
to what improving civil rights means and that remains one of 
the challenges for the future. Some very good things are 
happening as discussed in our statement.
    In the last five years, the Farm Service Agency has 
increased its lending to African American farmers by 67 
percent. It has also worked hard to improve the diversity 
composition of its county committees. The department has 
focused new attention on small farms, farm workers and the 
disabled. Our food safety message, for example, is going out in 
four languages now besides English, to 183 African American 
newspapers. After much give and take, the Forest Service 
working with the Department of Justice and USDA lawyers has 
settled a class action brought by a group of women in one of 
its regions. A number of agencies are doing much better 
outreach and undertaking cooperative efforts with minority 
groups including Native Americans.
    Does USDA yet have a long way to go with improving civil 
rights? The answer is yes. One thing we have learned is that 
civil rights, which many times translates into the more easily 
understood concepts of good customer service and good employee 
relations, requires constant attention and improvement. Mr. 
Chairman, I am happy to answer any questions at the appropriate 
time.
    The Chairman. Thank you very much. Mr. Fiddick, let me just 
ask for the benefit of all of us trying to understand the kinds 
of cases that are here--we have heard the statistics about the 
numbers and in the last panel I suggested some of the problems 
may come at the county committee level. Even Mr. Rawls has 
suggested that the diversity of county committees has been one 
of the objectives, but are there any typical groups of cases? 
Are largely these cases employees who have been discharged who 
feel that they have been unfairly treated or employees who did 
not receive promotions who felt that they had been unfairly 
treated? I am just trying to get some idea of who is filing 
these hundreds of cases and why there seems to be such an 
incidence of this at USDA in comparison with other agencies?
    Mr. Fiddick. Well, with your permission, sir, I would like 
to ask Ms. Gray to answer that question as the director of our 
Office of Civil Rights since early in 1998. She has had a great 
deal more experience with that firsthand than I have.
    The Chairman. Right.
    Ms. Gray. Thank you. On the program side, the majority of 
the complaints are filed by minority persons, African American 
males, women, some Hispanic, some couples and also couples 
because the woman was handling the business at the time. The 
complaints usually are against--most of them are against Farm 
Service Agency, and what they are about are generally the 
denial of an application for an operating loan or for ownership 
loan or for the denial of restructuring of financing, when the 
person thought he or she were eligible for it, and in the case 
of disaster payments, frequently the essence of the complaint 
relates to the refusal to provide an application. On the 
program side, that would include the majority of our cases.
    On the employee side----
    The Chairman. Let me just ask here, Ms. Gray, these would 
appear to be fairly open and shut cases, would they not, in 
terms of fact? Either you got the application or you did not 
get the application or you qualified for the loan and their 
criteria or you did not? In other words, what we are hearing is 
these cases take months, maybe even a year, to resolve, which, 
of course, does mean justice denied if it was an emergency loan 
or a disaster payment at the time, but maybe I am 
mischaracterizing and making too simple what is much more 
complex.
    Ms. Gray. It is relatively simple, but we do not process in 
the short or reasonable period of time quite frankly. There is 
no other way to say that. It is not simple because usually 
there are two sides of the story and then there is also the 
truth, which involves not only doing a field investigation and 
talking to the complainant, but it also requires a very 
extensive review of the record and the application for the 
particular benefit.
    Part of our problem in the Office of Civil Rights is that 
we do not always have the skills to review the farm application 
package to process in a timely fashion so, yes, it is simple, 
but it is not quite simple and there are many programs in the 
Farm Service Agency, and we are not always quick in our review 
and we do try to be careful.
    We also have a number of housing complaints and generally 
the housing complaints are about the denial of the loan for 
purchase of a house or some housing facility. That is the easy 
side. The difficult side is certainly the employee side. We 
have every range of complaint that you can imagine would happen 
in the workplace. We have sexual harassment complaints. We have 
certainly racial discrimination, Hispanic, African American, 
some Native American. We have complaints about discrimination 
and promotions and training. You name it. If it is an aspect of 
the employee relationship, there is a complaint about it.
    The Chairman. Once again why so much of this at USDA as 
opposed to other agencies?
    Ms. Gray. Well, the number of complaints at USDA based on 
the number of employees is not that much different than many 
agencies. USDA is slower in processing its employee complaints 
than most agencies. Our agency that has the largest number of 
complaints is certainly the Forest Service and the working 
situation for the employees in the Forest Service, some of them 
in isolated camp, certainly give rise to the complaints. That, 
then again, makes it more complicated for us to bring about the 
appropriate investigation because some of the employees are in 
isolated camps.
    I think that for Farm Service where we have county 
employees, again, the local culture contributes very heavily to 
the workplace and what goes on in a county community is 
reflected in the workplace and that gives rise to a number of 
complaints. We are because we are so large and spread 
throughout the country a department that very much reflects our 
customers and to the extent that there is discrimination, and 
there is discrimination in these counties and in these 
workplaces, we get complaints about them.
    The Chairman. Mr. Fiddick, is one possible alleviation of 
your problem a group of skilled personnel who are conversant 
with complex agricultural programs or those who can go to the 
site and say this person is qualified for the loan or this 
person is not? In other words, just trying to break through the 
clutter of all this, what sort of people do you need, what type 
of authority for them to go to the site and get on with it?
    Mr. Fiddick. No, I believe you are entirely right, Senator, 
that there is a certain skills deficit that has been documented 
in the Office of Civil Rights. We did not know exactly how many 
persons that represented, whether those persons were incapable 
or whether they were simply playing out a position. As a part 
of the long-term improvement plan, the management plan that has 
been drafted, one essential element of that is to take a skills 
inventory of the personnel we have on board currently and what 
the organization needs to meet its requirements. We will 
conform one to the other in an appropriate way.
    The Chairman. Let me mention that Senator Charles Robb of 
Virginia has given a statement that I will make a part of the 
record. He has been deeply interested in this issue for a long 
time, and Senator Robb has asked two questions, one to Mr. 
Fiddick and one to Mr. Rawls, that I will submit to you so that 
you might give written responses for our record if you would. 
He has been in contact, as I understand with both of you or 
your offices as recently as July 11, and so I mention that as 
background for his inquiry in terms of followup.
    [The prepared statement of Senator Robb can be found in the 
appendix on page 234.]
    The Chairman. Senator Conrad.
    Senator Conrad. Thank you, Mr. Chairman. Thank the 
witnesses as well. Mr. Fiddick, we certainly have high regard 
for you and your background and it sounds to me as though you 
have got a plan to improve things. I have certainly heard very 
good things about Mr. Winningham and your background and the 
level of intensity you bring to trying to fix these problems.
    Mr. Fiddick. Thank you, sir.
    Senator Conrad. Can you tell us what you see as the major 
hurdles to be jumped here? You know as I was saying earlier, 
every time I have had a management problem, and this sounds to 
me like a management problem, I have generally found it is 
people. I have got the wrong people in the wrong slots. It does 
not mean they are not good people. Just sometimes you got the 
wrong people in the wrong slots. Sometimes you got people who 
just do not have the right attitude. They are not can-do 
people. You know they got a million reasons why something 
cannot be done.
    I remember very well one time I had a serious problem in a 
major part of my department and after listening for about eight 
months to all the reasons things could not be done, I realized 
I just had a guy with the wrong attitude. I got him out of 
there and I got somebody with the right attitude and it is 
amazing how all the problems got cleaned up very quickly.
    As you diagnose it, Mr. Fiddick, what is the primary 
problem or problems and how soon can they be resolved? Is there 
something that we can do that would help you and then I would 
have the same question for Mr. Winningham?
    Mr. Fiddick. I agree with your premise that there are few 
things in business or government that cannot be solved with the 
right management put in the right position empowered to act. I 
agree to some degree with what the previous witness from the 
GAO said that the problems in the Civil Rights Office have been 
systems and process and people and more or less all of the 
above. The hurdle that we have, the height of the hurdle is all 
of the work that needs to be done. That is the bad news. The 
good news is that it can be done with the right management in 
the right place and I believe that we have begun to make those 
strides. You fix the problem a day at a time and a hire at a 
time and the new structure we have in the Civil Rights Office 
with Rosalind handling policy and regulatory and David handling 
operations is a good one.
    We will bring on board before the end of the month a Deputy 
Director for Employment, which is an important position in our 
operation, and the person that we have hired is a career civil 
rights professional in that job. As the IG and the GAO has 
correctly reported, there has been a tremendous amount of 
turnover in this office since it was reconstituted in 1997. I 
do not know that anyone is to blame for that, but it certainly 
has been to the detriment of the efficiency of the office and 
the customers of the office. We can begin to fix that with each 
new hire and are.
    Senator Conrad. Mr. Winningham, what would be your response 
to that?
    Mr. Winningham. My response is that the Office of Civil 
Rights came together very fast under a great number of 
adversities. The staff has never been pulled together in a 
coherent manner. The skills are lacking in certain areas such 
as programs which when you are looking at farm loan programs or 
rural housing or the various programs which complaints are 
filed against, having the rights skills and knowledge to be 
able to evaluate the issues that are associated with those 
complaints, we just do not have that.
    We have a system where the files are not well put together 
and so we all have to look at our processes, we have to look at 
our skills mix, we have to look at the levels of authority and 
we have to look at the amount of resources. We also did a time 
study to take a look at how long it takes for each process of 
the complaint process to perform and we found that we are 
lacking in several areas. It is a comprehensive amount of 
things that must be done if we are to get out of this and the 
one that is big on top of all of this is the inventory of 
complaints that we have. My view is that we have to put 
together a project that would eliminate the inventory of 
complaints that we have right now as well as the new complaints 
coming through the system during that period. That when we get 
through it, we would be even. In my mind, that is significant 
if we are ever going to get our arms around this.
    Senator Conrad. You know it sounds to me as if you have got 
a backlog here that has got to be addressed and obviously you 
got the program side, you got the employee side. Is part of the 
solution here using alternative dispute resolution, to use 
mediation to try to get through these cases more quickly?
    Mr. Winningham. That is not going to be the solution for 
what we have except by the time it gets to us, we are under the 
180 day clock that is ticking where we have to take it through 
the due process. ADR is best before you ever get to that point. 
There are cases when you are getting into the resolution 
initiative that would lend themselves to ADR while it is in the 
formal complaint process.
    Senator Conrad. Can I ask Mr. Rawls just a question? That 
is you have got now class action suit that involved the black 
farmers, the Pigford case. You have got resolution there. You 
have got the Keepseagle case that involves Native Americans. 
Are these cases largely the same kind of cases in your view? 
Are they different kinds of cases? Are you treating them the 
same or are you treating them differently? If you are treating 
them differently, why?
    Mr. Rawls. Senator, I am going to disappoint you and give 
you a very bureaucratic answer, but it is really the only one I 
can give you, which is that Keepseagle is in active litigation 
being handled by the Department of Justice. You know motions 
have been filed. I really cannot discuss that case beyond that. 
I would offer to talk with the Department of Justice and visit 
with you or your staff about it, but I really do not think it 
is appropriate to try to make comparisons or otherwise talk 
about the case in this forum.
    Senator Conrad. I would like the opportunity to talk to you 
about it and Justice Department as well on those fundamental 
questions that I have asked here. How are they viewed? Are they 
viewed as largely similar or in some way different? I can just 
tell you that within the Native American community, there is a 
perception at least that there is differential treatment going 
on here and that is a great concern within the Native American 
community. I thank the chairman.
    The Chairman. Thank you, Senator Conrad. Senator Lincoln.
    Senator Lincoln. Thank you, Mr. Chairman, certainly for 
holding this hearing which is very important to my constituents 
in Arkansas and, if I may, I would just like to make a few 
comments before I ask questions since I was tardy, and I 
apologize for that.
    The Chairman. Please do.

STATEMENT OF HON. BLANCHE LINCOLN, A U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. As the youngest woman in the history of 
our country to serve in the U.S. Senate, I certainly understand 
how important it is that the principles of equality and 
opportunity apply to all Americans. I found myself in the same 
position that many of the complainants have in your cases.
    I feel that Congress definitely has a duty to ensure that 
discrimination does not prevent anyone from realizing their 
full potential or their dream and I believe that is why we are 
here today. I also believe that government assistance should be 
equally available to all citizens of this country and it is 
unbelievably disturbing to me that we even have a reason to 
hold this hearing, but I appreciate the previous panel of 
witnesses and certainly your willingness to be here.
    There are certainly several allegations, as Senator Conrad 
brings up other issues and other cases, problems that we all be 
discussing today and in further discussions, but there is one 
in particular, the Pigford v. Glickman case, the class action 
suit, otherwise known as the black farmers case, that has 
caused great frustration to a number of my constituents in 
Arkansas. In 1998, I contacted by letter Secretary Glickman and 
President Clinton and the administration to handle this case as 
expeditiously and as fairly as possible.
    I could certainly foresee the problems that were brewing. I 
was very delighted when Ms. Gray came to my office to visit 
with me during this year's session to talk about some of the 
frustrations that had escalated in Arkansas and the concerns 
that we had. However, I am extremely concerned about the claims 
approval process that was established by the consent decree 
that was signed by USDA and the lawyers representing the black 
farmers. I certainly recognize that some of that is out of your 
hands at this point. I also find that to be a bureaucratic 
answer as well in many ways.
    I understand that that decree the Department of Justice is 
the official government entity presiding over that case. They 
have also been required to contract all claims reviews out to 
private organizations, which I have had a difficult time in 
understanding and in getting in contact with. The private 
entity reviews data that is collected by USDA to determine 
whether a claim is potentially valid. These private entities 
have control over that. Once a black farmer's claim has been 
designated as potentially valid, it is then referred to a 
second private entity which approves or dismisses this claim. I 
am assuming that I am representing the process correctly.
    I have kind of filtered through as much of it as I can. The 
system was immediately overwhelmed by an unexpected number of 
claims, as you all have mentioned earlier. Attorneys for the 
black farmers had estimated that around 400 claims would be 
filed and instead more than 20,000 black farmers have logged 
discrimination claims with the court established claims 
evaluator. As a result, I am hearing that claims have been 
delayed and often handled without proper consideration, a lot 
of what everyone else in this room has been hearing and 
certainly you have as well.
    I have heard from many farmers who feel their valid claims 
have been denied while others have been approved even though 
the two complainants' histories are very similar, side by side 
individuals living next door to one another, who have almost 
identical situations.
    The court appointed monitor in this case, Randi Roth, 
opened an office in Memphis, Tennessee, which we were pleased 
because it would be in close proximity to the many cases that 
we had in Arkansas and to allow easier access to the black 
farmers. Yet I am still receiving complaints that many farmers 
cannot even get someone with authority over their claims to 
return their phone calls. To me that is inexcusable. Arkansas 
farmers often refer to USDA as a bureaucrat's endless 
bureaucracy and that is why it is so disheartening for us to 
get a bureaucratic answer. I certainly look forward to working 
with you all, but I do have a great deal of questions in terms 
of how my constituents are being handled.
    Perhaps you can give me some idea or indication the 
approved number of 1,152 claims in this particular case, in the 
Track A claims, how many of those have been paid? I am also 
getting the reaction that they are getting a judgment but they 
are not getting paid. In your opinion, what can be done to 
expedite the review process for these claims approvals or their 
dismissals? Do you have recommendations for those independent 
entities that are out there handling this? From your management 
standpoint, is there a better way that the private entities 
could be handling this and a better way for you all to work 
with them?
    Mr. Fiddick. I think that General Counsel Rawls probably 
can best field this question.
    Mr. Rawls. Well, I will say a few things. Pieces of the 
process are working quite well, but I would reiterate what I 
said earlier, which you alluded to, with 20,000 claims this has 
been a monumental undertaking. Specifically, to some of your 
questions, the third party adjudications, the review of the 
actual claim on its merits, under the settlement, was a very 
important aspect of the settlement, to move that out of the 
government, out of the department.
    Senator Lincoln. Right.
    Mr. Rawls. Hopefully instill some confidence in the 
claimants that, as I said earlier, they got heard one time. 
Maybe they do not prevail, but they got heard. Those 
adjudications, while they took quite awhile to set up this 
whole system, they have gone pretty well. In fact, they have 
done about 18,000 of those adjudications. Now where some of 
the----
    Senator Lincoln. How much of the approved ones have been 
paid?
    Mr. Rawls. Well, that is where I am getting to. That is 
where some of the frustration is. We have had about 11,000 
cases approved. 7,000 of those have actually been paid. There 
is a group of claims that are in the process that are in the 
queue at the Department of Justice to be paid from the judgment 
fund.
    Senator Lincoln. A little over half. Because you are almost 
at 1,200 there in terms of the approved. These are just in 
Arkansas for me, my numbers.
    Mr. Rawls. OK. Obviously I do not have the Arkansas numbers 
in front of me, but class wide, 11,000 have been approved and 
7,000 have been paid.
    Senator Lincoln. OK. I am sorry. The nationwide numbers are 
so close to Arkansas, I thought you were referring directly to 
Arkansas because ours are 1,100. Thank you.
    Mr. Rawls. Right. I can see why that is confusing. The 
payment system itself took a while to set up. The judgment fund 
apparently normally deals with very large, a small number of 
very large payments. This is a very large number of payments 
and frankly they were overwhelmed at the beginning of this, but 
that seems to be getting straightened out and those payments 
are being made now within 90 days.
    Senator Lincoln. Within 90 days?
    Mr. Rawls. Yes.
    Senator Lincoln. The backlog, do you anticipate within 90 
days that backlog would be taken care of?
    Mr. Rawls. Well----
    [Laughter.]
    Mr. Rawls. I cannot say that. What I am saying is that they 
are endeavoring to make 90 days from the date of the 
adjudication.
    Senator Lincoln. You feel confident that the system that is 
now in place is equipped to deal with both the backlog and 
those that are being adjudicated at this point?
    Mr. Rawls. I do. I believe the system is working. I am 
frustrated that----
    Senator Lincoln. Can I write my constituents and say in 90 
days they can see it?
    Mr. Rawls. From the date of their decision, yes.
    Senator Lincoln. Mr. Chairman, may I ask one last question? 
Ms. Gray, you made the point in terms of percentages. Do we 
know where the agency, the Department of Agriculture ranks in 
terms of percentage of minorities in that agency?
    Ms. Gray. We certainly have the statistics for each of the 
protected classes. We would have statistics for African 
Americans, for Hispanics, and I would say that for most 
categories, the department is pretty close to--for African 
Americans, it is pretty close to if not slightly above civilian 
labor work force--for African Americans--below on Hispanic, 
below on Native Americans, and below on Asian Americans, 
slightly above on women in terms of the civilian labor force 
numbers, which is the way we track that.
    Senator Lincoln. You did make the comment that in terms of 
the number of cases that you had that it was not outrageous in 
terms of the percentage of minorities----
    Ms. Gray. Right.
    Senator Lincoln [continuing]. That you have in the agency.
    Ms. Gray. The employment complaints themselves----
    Senator Lincoln. Right.
    Ms. Gray [continuing]. We are about fourth or fifth in 
terms of the percentages. We are about at one percent and there 
are about four or five agencies that are below us and the rest 
are certainly above that, but about one percent of the total 
employee population.
    Senator Lincoln. Of USDA?
    Ms. Gray. Of USDA.
    Senator Lincoln. OK. Thank you. Thank you, Mr. Chairman. I 
apologize for running over.
    The Chairman. Well, thank you very much, Senator Lincoln. 
Thank you for the historical note that you are the youngest 
woman elected to the Senate. That is an important point.
    I would like to recognize now the distinguished ranking 
member of our committee, Senator Harkin of Iowa. He has been 
deeply interested in this issue and in a bipartisan way we have 
held these hearings, and as I pointed out almost annually, 
trying to come to some benchmarks and some solutions. I would 
like to recognize the senator for his opening comment or 
questions he may have of the witnesses.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY.

    Senator Harkin. Thank you very much, Mr. Chairman. I 
apologize for being late and I hope none of you take that as 
any indication of a lack of interest in this issue by me. As 
our chairman said, he and I both have had a long-standing not 
only interest but working bipartisanly to try to get this 
department moved and changed around so that we can not only 
handle the cases but try to find out why we got so many of 
them. Mr. Chairman, I thank you for holding this important 
hearing.
    For far too long a positive record at USDA has been marred 
by a deep-rooted and far-reaching tolerance of racism, hostile 
work environments and discriminatory treatment of minority 
farmers. I do want to give credit to this administration and 
particularly to Secretary Glickman for the action he has taken. 
In December 1996, he appointed the Civil Rights Action Team. In 
March 1997, the Office of Civil Rights was created to address 
the employment and program complaints at USDA. He has taken 
some positive steps.
    The administration also, as we know, reached a settlement 
in the class action suit by African American farmers concerning 
discrimination in lending and benefit programs. There has been 
some increased lending to minority farmers and a higher 
percentage of minority employees at USDA, all good indications 
of moving in the right direction.
    That is the good news--despite those improvements, USDA's 
Inspector General and GAO have found continuing problems in the 
operation of USDA's Office of Civil Rights and even more 
troubling a failure to address the IG and GAO recommendations. 
The IG noted that no significant changes in processing 
complaints had been made since the last review. I do not know 
if you have covered that in my absence or not, but I would like 
to ask you about that.
    I believe this is unacceptable, totally unacceptable. It is 
essential that USDA improve the process of handling complaints 
as called for by both the USDA Inspector General and the GAO. 
Even beyond that, what I just said, USDA must get to the root 
of the problem. The message has to come through loud and clear 
at USDA discrimination is unacceptable in any form, place or 
time. Now what I keep hearing is that the number of complaints 
at USDA completely overwhelms the system for investigating 
them. The Secretary has called for more outside help to come in 
to handle the complaints.
    The question ought to be why are you getting so many 
complaints in the first place, not do we need to hire more 
people to process the complaints? What is the root of the 
problem, my friends? The answer is not just to hire more people 
to process more complaints. Why are you getting so many? That 
is the root of the problem and I do not see you getting to 
that. I do not see USDA getting to the root of that problem.
    The bad actors have to be held accountable at the root of 
this thing, not just at the end of it, but at the root of it. 
Again, I do not know. I look in vain. I do not know. Can you 
fire anybody? Does anybody ever get fired at the Department of 
Agriculture?
    [Laughter and applause.]
    Senator Harkin. You know? This goes on and on and on and 
on. You get more and more complaints and the system sort of 
bogs down. Then when the IG and the GAO make their 
recommendations, we come back a year or so later and we find 
out that no process changes have been made. That is what they 
say. Now maybe you have got a different story, but that is what 
they are telling me.
    Now, last--I do not want to lay all the blame on the 
Department of Agriculture--Congress must also do its part. Mr. 
Chairman, I believe we can start by fully funding the Outreach 
for Socially Disadvantaged Farmers Program, which provides 
grants to eligible community-based organizations to provide 
education and other agriculturally related services to socially 
disadvantaged farmers and ranchers. Congress authorized $10 
million for this program in the 1990 farm bill, but has refused 
year after year to fund the administration's request for that 
amount.
    For 2001, both the House and Senate have approved only $3 
million for this valuable program. It should be fully funded 
before this session of Congress ends and we should fund it 
through the Ag appropriations bill. It is not in your 
bailiwick, Mr. Chairman. It is in the appropriations bill, but 
it ought to be fully funded. It ought to be funded at the $10 
million level. It is called the Outreach for Socially 
Disadvantaged Farmers Program. Congress has got to do its part 
on this also. Mr. Chairman, thank you again for having this 
very vitally important hearing.
    [The prepared statement of Senator Harkin can be found in 
the appendix on page 64.]
    Again, if I had one question I would ask of Mr. Fiddick, I 
would just ask the question that I just alluded to and that is 
the IG office and the GAO recommendations have noted that no 
significant changes in processing complaints have been made 
since the last review. Now have you already addressed before I 
got here?
    Mr. Fiddick. I hope we have.
    Senator Harkin. Well, try it again.
    [Laughter and applause.]
    Mr. Fiddick. I will be happy to. The IG's field work ended 
coincident with the end of fiscal year 1999. All of the figures 
that you saw in the report were more or less current as of 
September 30 of last year. Since that time, well, I arrived on 
the scene in November of last year, and since that time we have 
made some organizational changes in the office of Civil Rights. 
We do that, we understand, at our peril because there have been 
a number of organizational changes, persistent organizational 
changes in that office, that have not worked to the benefit of 
the office. We think that we have arrived at a solution in this 
case that will work because we have divided the policy 
functions from the operational functions, invested the 
operational functions in a career executive, which has been the 
exception and not the rule, and will be particularly important 
in the coming months as one administration goes out and another 
administration goes in.
    If I could give you one individual answer to that question 
that would give you some encouragement going forward, it is the 
effect of instituting and inserting a career officer at a high 
level in the process at this particular time.
    Senator Harkin. That person is there?
    Mr. Fiddick. David Winningham.
    Senator Harkin. That is you, Mr. Winningham, chief 
operating officer. How long have you been on board?
    Mr. Winningham. I have been over there since April.
    Senator Harkin. Where did you come from?
    Mr. Winningham. I came from FSA.
    [Laughter.]
    Senator Harkin. Well, I do not know what that outburst was 
about.
    Mr. Winningham. I am sorry. I apologize to you. Farm 
Service Agency. I was civil rights director in the Farm Service 
Agency since 1997.
    Senator Harkin. Since 1997?
    Mr. Winningham. Right.
    Senator Harkin. Are you saying to me that the fact that 
there has been no significant changes in processing complaints, 
that only goes back to last September? That is what you are 
telling me. We are looking at less than a year. Is that what 
you are saying to me?
    Ms. Gray. Let us take it back----
    Senator Harkin. When was the last review?
    Mr. Fiddick. In March of this year.
    Ms. Gray. The last review in March was the employment 
review. The reviews actually started much earlier, that going 
back to 1996 when they identified the backlog of complaints, 
which had the 1,088 cases for program, and, in fact, all of 
those cases have been resolved except for three. In September 
1998, Secretary Glickman convened an Early Resolution Task 
Force which was able to resolve all but 35 of those cases so 
that was an initiative that was conducted. It certainly was 
recommended by the IG and it certainly was part of one of the 
management decisions that the IG has accepted.
    There have been through the various phases of 
investigations for program complaints--keeping in mind that the 
first IG investigation on employment only happened last year--
certainly the resolution of more than 50 percent of the 
management decisions that they have made. You certainly will be 
getting copies of those for your record, I am sure. I do not 
think it is accurate. I have a letter from the IG's office as 
of August 31, which certainly records by number the 
recommendations and the management decisions that have been 
reached as a result of the investigations into the Civil Rights 
Office. To say that nothing has been done is not accurate.
    On the employment investigation that was just completed 
this spring, we have reached management decision on more than 
half of the 21 recommendations in that report and the 
recommendations that have not been accepted, it is because the 
things were put on hold as the department completed the 
management plan. The management plan will certainly change the 
responses that were submitted. To say that there has been no 
progress or to say that there has not been agreement with the 
Office of Inspector General on the recommendations that they 
made is not correct. We will certainly be happy to submit the 
letters from that office to you for your consideration.
    Senator Harkin. Thank you. I may have some followup later, 
Mr. Chairman, but I see my time has run out.
    The Chairman. Thank you very much, Senator Harkin. We 
appreciate very much your responses today. Obviously, you have 
heard the Inspector General and GAO to begin with. You have 
attempted to give at least as much optimism to the situation as 
you could, but clearly the underlying problems--Senator Harkin 
has mentioned them again--as we talked about them earlier, the 
high number of these cases, the reason for this number of 
disputes, is still not clear to any of us, perhaps not to you. 
Maybe it is something that you will never have an answer to. 
You do the best you can to institute procedures so that justice 
occurs in a fairly short period of time.
    We will continue to be in touch with you. We would like to 
have, Ms. Gray, the comments that you just made or at least the 
findings from the attempt to meet with the OIG recommendations 
or the reasons why these have not been instituted. Certainly 
his charges were very severe, namely the 119 recommendations 
and no progress. You are saying, in essence, management plans 
are about to be instituted incorporating some of these or you 
put some things on hold institutionally. This may be 
understandable, but, on the other hand, what appears to be the 
case is not much movement even given the critiques that seem to 
come annually and that is disturbing to most of us in this 
panel. Yes.
    Ms. Gray. It is disturbing, but we have resolved thousands 
of cases and the fact of the matter is that a thousand new ones 
have been filed.
    The Chairman. This begs the question of why?
    Ms. Gray. Why? Because there is some discrimination and 
certainly the perception of discrimination at USDA. That is the 
situation. To address that, the Secretary certainly made 
several new initiatives in June. One was the accountability 
policy, to hold employees and managers responsible for 
discrimination, not only where there was an official finding of 
discrimination but also where there was a settlement of a case, 
because there was the perception that some managers were 
settling cases to avoid being disciplined. We have set up 
procedures to track the settlements as well as the findings and 
the settlement agreements are automatically forwarded to the 
Office of Personnel for them to take appropriate disciplinary 
action.
    Senator Harkin. Mr. Chairman, if I might just ask--I do not 
know the answer to this question. How does this number of 
complaints at USDA, civil rights complaints, compare with 
complaints say at HUD or at VA or at HHS? I would to know how 
this--is there any kind of comparison on this?
    Mr. Fiddick. There is as a matter of fact, Senator, and I 
believe that we can find that information for you. The source 
is the Equal Employment Opportunity Commission Report in 1998, 
which tracks employment complaints which is in their 
jurisdiction.
    Senator Harkin. Employment complaints.
    Mr. Fiddick. In that year, Agriculture had a number of 
complaints equal to 1.0 percent of its total work force and I 
have how the other cabinet offices ranked. Those which have a 
rate that would be more than Agriculture are Labor, Education, 
HUD and Transportation. Those that have a rate less than 
Agriculture would be all the rest. The 1-percent incidence----
    Senator Harkin. Excuse me. What did you say?
    Senator Lincoln. There is five that had more.
    Mr. Fiddick. There are four that had more.
    Senator Harkin. Four had more.
    Mr. Fiddick. Agriculture would rank five of the 14 other 
cabinet agencies.
    Senator Harkin. This is employment discrimination.
    Mr. Fiddick. That is correct.
    Senator Harkin. That is internally. We are talking about 
program.
    Mr. Fiddick. Right.
    Senator Harkin. These are not just employment cases you are 
getting. These are program complaints; right?
    Ms. Gray. That is correct.
    Mr. Fiddick. Yes.
    Senator Harkin. That is what I am interested in. Let us 
talk about the apples and apples. I am saying how does this 
compare? HUD has programs. HHS has programs that reach out to 
communities. What kind of complaints are they getting on civil 
rights complaints on their program applications and their 
program outreach programs compared to USDA, not employment, not 
employment?
    Mr. Fiddick. We do not have those figures.
    Senator Harkin. I do not either.
    Mr. Fiddick. We will try to find them for you.
    Senator Harkin. I do not either. That is why I asked you.
    Mr. Fiddick. It is much easier with EEOC because you have a 
central reporting agency. I would say, though, that there are 
many opportunities for USDA to discriminate because we have 
millions of transactions with customers. Our current loan 
portfolio is 214,000 farm loans. We originated 38,000 farm 
loans last year. We had 60,000 rural housing transactions. The 
denominator in the equation we are talking about is very large 
both for employment and for program activity.
    Senator Harkin. Well, I got to believe under HUD with all 
the Section 8 vouchers they have got and things out there, they 
are going to have about as many as you. I would just off the 
top of my head think it.
    Mr. Fiddick. We will look into it.
    The Chairman. Just adding to that, Senator Harkin, it was 
also mentioned that the Forest Service has a good number of 
complaints and this, of course, is totally outside the loan 
business, an interesting part, and shows the far-flung aspect 
of USDA's activities. Well, we thank you very much for coming.
    Senator Harkin. Thank you.
    The Chairman. We would like to recognize now a panel 
composed of Mr. John Boyd, President of the National Black 
Farmers Association; Mr. John Zippert, Director of Operations, 
Federation of Southern Cooperatives, and chairman of the board 
of the Rural Coalition; Mr. Lawrence Lucas, USDA Coalition of 
Minority Employees; Mr. Harold Connor, Upper Marlboro, 
Maryland; Ms. Juanita Carranza, Lambert, Montana; and Mr. 
Alexander Pires, Conlon, Frantz, Phelan & Pires, Washington, DC
    Gentlemen, we thank you for coming this morning. I will ask 
each one of you, as we have the other panelists, to try to 
summarize your comments in a 5-minute period, more or less, and 
then that will offer opportunities for senators to engage in 
questions and colloquy with you. I will ask you to testify in 
the order that I introduced you and that, first of all, would 
be Mr. Boyd.

   STATEMENT OF JOHN BOYD, PRESIDENT, NATIONAL BLACK FARMERS 
               ASSOCIATION, BASKERVILLE, VIRGINIA

    Mr. Boyd. Good morning, Mr. Chairman. I would like to thank 
you for hosting this hearing, this long overdue hearing, I 
might add, and also I would like to thank Senator Harkin and my 
good friend, Senator Charles Robb from Virginia, who worked 
long and hard on this issue, who introduced the statute of 
limitations waiver for African American farmers.
    Again, my name is John Boyd, president and founder of the 
National Black Farmers Association, and it gives me good 
pleasure to be here this morning to talk to you for a few 
minutes about the problems that have existed for decades. It is 
our belief that our actions taken or not taken by the U.S. 
Government over the past century have systemically deteriorated 
rural America and African American farmers and other socially 
disadvantaged farmers across the country.
    At critical times when our farmers needed government the 
most, they failed to come through for them. For that reason, I 
wish to thank this committee for taking a look at this issue 
this morning and I hope that my statements here today will be 
beneficial to everyone here as it relates to the plight of the 
black farmers.
    The National Black Farmers Association has been working 
hard and long on the issue of black farmers from protesting, 
using our historic mule struggle, to gain the attention of the 
media over this issue, and again I would like to acknowledge 
the Clinton administration for at least taking a look at this 
issue and meeting with us on December 17, 1997, so we would 
like to thank the Clinton administration. To me, USDA is still 
known as the last plantation. I have personally named it an 
overflowing cesspool of filth that needs pumping and cleaning 
and disinfecting.
    In the early 1900's, there were more than one million black 
farmers in this country. Today that number has declined to less 
than 18,000 black farmers. The National Black Farmers 
Association believes that must of this decline is directly 
attributed to the actions and inactions of the United States 
Department of Agriculture officials.
    As I listened to the Inspector General this morning, it 
turned my stomach to hear our very own Inspector General admit 
to such egregious acts, numbers and boxes of unprocessed files 
that lingered in the Office of Civil Rights for decades. I 
remind you of the legal example such as loaded handguns in the 
United States Department of Agriculture office where African 
American farmers came in and was greeted by a loaded handgun, 
only to no prevail when no one was fired for this egregious 
act.
    These are some things that we hope that this committee will 
take a strong look at and deal with, Mr. Chairman. In an 
atmosphere in many parts of the country where USDA officials 
gave millions of dollars in gifts to their friends and farming 
families while thousands of African American farmers was left 
without help, seven years ago, I personally faced some 
discriminatory acts by the United States Department of 
Agriculture. As I sat in my farm house by candlelight during 
the dead of winter, it became very clear to me. My lights had 
been turned off. Federal officers were knocking at my door 
threatening to confiscate my equipment. Foreclosure signs were 
being posted on my property. Stress had destroyed my family. 
There was no money. All of this at no fault of my own.
    Through these type of actions and others has wiped out 
thousands of black farmers across this country, and we have to 
do something to deal with this kind of issues. I realize that I 
was not alone. Many other black farmers had lost their farms 
through egregious discrimination acts, mostly by the United 
States Department of Agriculture, and this has been the worst 
nightmare for a lot of people across this country.
    As these acts of discrimination continue with the United 
States Department of Agriculture, our government distances 
itself from cores and values on which this country had been 
founded. During the Reagan administration, America's top 
decisionmakers dismantled the Office of Civil Rights within the 
United States Department of Agriculture. This resulted in 
thousands of discrimination claims simply being thrown away or 
stored in boxes standing as high as ten cubic square feet per 
the Civil Rights Action Team report that was listed in 1997.
    Black and other economic disadvantaged farmers have been 
and continue to be denied access through financial and 
programmatic resources readily available to others throughout 
our society. Mr. Chairman, I report to you today that our 
American dream is still being denied. Too many African American 
and socially disadvantaged farmers have just not received 
justice and it is still just a dream for them.
    One of our first leaders to recognize this problem was 
Congresswoman Maxine Waters on the House side and she worked 
long and hard along with other Members of Congress to address 
this issue. With thousands and thousands of farmers yet to be 
compensated from this settlement, this appears to be an example 
of a hollow promise and again America failing black Americans 
like it did in the 1800's promising the 40 acres and a mule to 
those who had been wronged.
    Again we are here today to say that we have to make that 
promise fulfilled. The class action did not provide any 
injunctive relief--a court appointed monitor who simply does 
not have the power to overturn decisions for farmers who 
supposedly prevailed in the class action lawsuit, lawyers who 
refuse to continue to represent them because they have not been 
paid either through the consent decree. Mr. Chairman, we have 
some serious problems with the class action lawsuit. There is a 
number--I see my time has run out--but there is a number of 
recommendations that I would like to submit for the record and 
I hope that this committee will take a long, hard look at those 
issues.
    I would just like to close by talking about the county 
committee system. This county committee system, Mr. Chairman, 
makes up a racial makeup of 8,000 white males, 28 blacks and 
two females, which promotes racial disparity, sexism, and there 
has to be something--there is a law within the department that 
they can terminate people that are on a county committee. It is 
just simply not being done. Again I hope that this committee 
will take a long, hard look at a issue that has plagued this 
country for decades. Let this not be another listening session, 
but let this be a hearing that will be a long and fruitful 
harvest. Thank you very much.
    The Chairman. Thank you very much, Mr. Boyd.
    [The prepared statement of Mr. Boyd can be found in the 
appendix on page 138.]
    The Chairman. Mr. Zippert.

 STATEMENT OF JOHN ZIPPERT, DIRECTOR OF OPERATIONS, FEDERATION 
                 OF SOUTHERN COOPERATIVES, AND 
   CHAIRMAN OF THE BOARD, THE RURAL COALITION, EPES, ALABAMA

    Mr. Zippert. Yes. My name is John Zippert and I am the 
Director of Program Operations for the Federation of Southern 
Cooperatives in Epes, Alabama, and I am also the chair of the 
board of the Rural Coalition, which is a national organization 
of community-based groups dealing with these issues, including 
the Inter-Tribal Agriculture Council, Hmong farmers in 
California, Latino farmers across the Southwest. I am here in 
both capacities and personally I have been working on this 
problem for 35 years, starting in 1965 as a worker/volunteer 
worker for the Congress of Racial Equality in St. Landry 
Parish, Louisiana, where I participated with the farmers there 
in an ASCS election and these were farmers who had not yet 
voted in a real election because of the passage of the 1965 
Civil Rights Act.
    I have a long history of working on this problem and it is 
a serious problem; and it is a problem, as you have heard this 
morning, that USDA has not fully addressed and we submitted 40 
pages of testimony. We have been working on this for years. We 
will submit more. I am going to talk about the Pigford part for 
the end, but let me say that we are very concerned that top 
managers and people within the agencies of USDA are not being 
held accountable for the behavior of their subordinates.
    There is a people problem there. As Senator Harkin asked, 
they have great difficulty in firing people who want to do the 
wrong thing; they appear to be more successful in getting rid 
of people and reorganizing people who want to do the right 
thing, and this is something that Congress ought to take 
another closer look at. I also support your statement and we 
have been strong supporters of the Section 2501 program of 
outreach for the socially disadvantaged farmers. Really if you 
look at the $10 million that should have gone into that 
problem, we have a deficit now since 1990 of 60 or $70 million 
that was never appropriated for a program that could do 
something about these problems and could reach out to people 
and give them information about all the programs of USDA, not 
just the loan program, the forestry programs, the crop 
insurance programs, the export programs and so on.
    Let me also say on a very particular thing that we have 
been working on for years which is CRAT Recommendation No. 28. 
This was to create a registry of minority farmers so we could 
tell where they were and make sure assistance was given to them 
so that the disastrous reduction and loss of black-owned land 
would not continue. Here was a simple recommendation. FSA/USDA 
agencies agreed this would be done. We went through all kind of 
hurdles with OMB. I have a letter from Mr. Fiddick six months 
ago saying this is his top priority and yet today there still 
is no registry and there seems to be a dispute between the 
agencies of USDA on what funds can be used to actually 
implement and do this program. Something is wrong. Even the 
best intentions go awry and we have heard of records and so on 
here. They just do not seem to really put their mind on things 
and get it together and carry it out.
    Now let me say about Pigford v. Glickman, and I had to tear 
myself away from my office. We have lines of farmers at all of 
the Federation's offices in the South today waiting to make 
sure that they can be included because there is a September 15 
deadline for late filing. Because there was not adequate 
outreach and information at the beginning of this case, that 
not everybody who should have been in it knew about it and is 
in it. On page eight, nine and ten of the statement that we 
have given, we have some detailed concerns about this suit, and 
of the 20,488 Track A people--this is as of August 15--there 
may be a few more now--18,000 have been adjudicated. 10,931 
have been approved, but only 6,600 of them have been paid, 60 
percent. Here we are a year and a half since the settlement, 
two farming seasons and only a third of the people in the class 
have actually received a check and been paid.
    Now of some of the people who have been determined by third 
party people that they were discriminated against, the 
government intends to ask the monitor to reconsider some of 
those people and I really think Congress ought to ask the 
Department of Justice to drop those reconsiderations. That if a 
third party found discrimination, all the things you have heard 
here, the government ought not challenge those third-party 
decisions.
    In addition, we have 7,000 people out there who are seeking 
our help and the help of some of the other people you will hear 
from on this panel to make a reconsideration of their case, and 
some thought ought to be given that everybody who is in this 
class ought to get this settlement and we are going to work 
hard to see that those 7,000 people get their reconsideration.
    Now, there is a lot that can be said here. One other thing 
is that although you have heard that third parties have dealt 
with this, FSA has had a flying task force of people to get 
evidence and information to challenge people's complaints of 
discrimination. They have had time and people to do that, but 
they have not had the people to send people a check. I have one 
farmer--I am going to finish with this. I have one farmer who 
gave me a letter which he received after waiting for his check 
for 90 days in which he is written by the settlement people 
that it is going to take longer because they have had too many 
people to participate in the case. I just feel if we can have a 
flying task force of FSA to find reason not to pay people, we 
ought to have a flying task force or somebody to help pay the 
people who have been judged to have been discriminated against 
and the farmer told me that this was the strangest, and he said 
that this letter--he described this letter as chicken 
excrement. He said this was the most chicken excrement letter 
he had ever got from the government.
    [Laughter.]
    Senator Harkin. Do we have a copy of that? Did you put that 
in here?
    Mr. Zippert. I will put it in. I want to probably cross the 
person's name, but I will put it in.
    The Chairman. Thank you very much, Mr. Zippert.
    [The prepared statement of Mr. Zippert can be found in the 
appendix on page 141.]
    The Chairman. Mr. Lucas.

    STATEMENT OF LAWRENCE LUCAS, USDA COALITION OF MINORITY 
                   EMPLOYEES, WASHINGTON, DC

    Mr. Lucas. Thank you, Mr. Chair, and this honorable 
committee for taking the time out of your busy schedule to deal 
with the issue of not only the farmer but for the first time 
one of the things that has been missing in this whole dialog 
about the Department of Agriculture, which only a few of the 
media have addressed, and that is the problem of the racism and 
sexism and the hostile work environment that is not only 
perpetrated against farmers but against its own employees.
    I would like to enter into the record my prepared statement 
as well as some attachments in support of that.
    The Chairman. It will be published in full as will all of 
the statements of the witnesses.
    Mr. Lucas. Thank you. This organization, the Coalition of 
Minority Employees, started in 1994, but it does not represent 
just the concerns of African Americans. It just so happened 
that its president is black, but we represent the concerns of 
Asians, Hispanics, people of color, persons of disability, and 
all those people that fall under Title VI as well as Title VII. 
I would also like to say that the Honorable Chuck Robb and 
Albert Wynn have been in the forefront of not only dealing with 
the issues of the discrimination and the dysfunctional civil 
rights system in USDA, but he also deals with the systemic and 
the in-depth problem and used Mr. Harkin's aides to get to the 
breadth of the problem as it relates to employees.
    You are not going to be able, as I said at the fairness 
hearing on behalf of the black farmers, you are not going to 
settle the problem of the U.S. Department of Agriculture unless 
you do what you have said and many of your colleagues--I think 
Mr. Harkin said it--that the one problem that they have not 
done, they have not fired people and not held those managers 
accountable for all the pain and suffering that is inflicted 
not only on employees but on customers throughout this United 
States.
    In the Forest Service, in Montana, for example, we have 
examples, and the Forest Service will tell you that there was 
not a woman thrown down the steps. They will tell you that 
there was not a woman who lost her fetus because of hostile 
work environment. They will also tell you that there are no 
acts of nooses being held and portrayed on government 
buildings. They will say that the ``N'' word is not being used. 
They will say they treat all people of all religions, Jews, 
Asians, Arabs fairly.
    They do not deal with those issues fairly on a broad base 
at USDA. The problem, Mr. Chair, is the problem that the 
Department of Agriculture and their recommendations that I 
heard even from the Office of General Counsel laying the 
problem on only on civil rights employees is wrong. The initial 
complaint that comes from discrimination does not come from the 
employee in the Civil Rights office. It is because of that 
culture, all those isms, the bigotry that is perpetrated at the 
ground level. It is wrong for OIG and anyone else who comes to 
you to say that the problem in Agriculture is the problem of 
the employees in Civil Rights. That is just one of the problems 
and believe me it is dismal.
    However, what is very important that the problem starts at 
the ground level by employees who do not treat their employees 
with dignity and respect and they feel the same way about its 
customers. Now let me say one thing about the Office of General 
Counsel that made recommendations to you today. That same 
Office of General Counsel tells you that we have got a problem 
and we are straightening it out, but it was that same general 
counsel that told the American public, this president and this 
committee that there was no discrimination against black 
farmers. There is a contradiction here.
    Now they also tell you that the Office of Civil Rights 
under Mr. Winningham is going to be correct. Senator Harkin 
kind of touched it. How can the individual that has been 
overseeing civil rights and the demise of employees in FSA, the 
Farm Service Agency, and farmers now going to take on the 
responsibility of seeing that employees and farmers are treated 
fairly? That is a hypocrisy and they lay that at your feet and 
want you to believe it.
    The employees of the U.S. Department of Agriculture and the 
people I represent, the Hispanics, the Asians, now they will 
say why is it that we have a 10-percent increase in complaints 
if everything is being fixed? They will say, OK, we have 
resolved 13 complaints and fired people, but not one of those 
complaints of persons being fired have discriminated against a 
black farmer and we are paying over a billion dollars and no 
one being held accountable for farmer complaints and they tell 
you that the situation is fixed. They do not hold anybody 
accountable for discrimination against black farmers, but they 
also do not hold anybody accountable for discriminating against 
employees.
    Now they will tell you now that gives me a great deal of 
pain. They tell you that all the fixes are in place and I tell 
you that they are not. Until we get to the problem and make 
sure that people who are around the Secretary, who tells the 
Secretary that everything is all right, and has advised him 
poorly including the Office of General Counsel, we need to do 
something about firing people. You have people at the U.S. 
Department of Agriculture running the Office of Administration 
and Civil Rights, but you also have the real problem at the 
ground. Until you begin to make sure those individuals who are 
the ones who are discriminating found guilty of discrimination 
are punished is the problem.
    I will close by saying this. There is a structural problem 
at USDA. They will tell you that everything is fine. You cannot 
have the Assistant Secretary for Administration overseeing 
civil rights and overseeing the Office of Human Resources. That 
has been proven a no-no by the Civil Rights Commission. They 
have been advised by the EEOC, but yet and still they will come 
to you and say we have got the fix. I say to you that the 
structure of civil rights, you need an assistant secretary 
responsible for civil rights who answers directly to the 
Secretary or the Deputy Secretary.
    Those people in civil rights cannot answer to the same 
person who handles the office of human resources that is 
supposed to hold people accountable because it does not work in 
government. I am saying that there is a structure in USDA which 
they tell you, Mr. Chair, that is fine. I am saying the 
structure is fixed and I say what they are saying to you is 
that the problem is in the Civil Rights Office. I say the 
problem is all the sexism and racism, bigotry and hostility 
that the employees at the Department of Agriculture that 
administrator after administrator, president after president, 
secretary after secretary has allowed to go on, and I would 
hope that this committee would not be fooled by the program 
that they offer for you. You have got to hold people 
accountable at every level and fire those people for 
discriminating against the American citizens as well as very 
competent and hardworking employees at the U.S. Department of 
Agriculture. Thank you.
    The Chairman. Thank you very much, Mr. Lucas.
    [Applause.]
    [The prepared statement of Mr. Lucas can be found in the 
appendix on page 188.]
    The Chairman. Ms. Carranza, we welcome you. As Senator 
Baucus mentioned earlier today, you have spent two days on a 
train to get here.
    Ms. Carranza. Yes, I did.
    The Chairman. We appreciate that perseverance and we look 
forward to your testimony.

        STATEMENT OF JUANITA CARRANZA, LAMBERT, MONTANA

    Ms. Carranza. Thank you, Senator. As you said, I did spend 
two days on the train and so you might as well shut your little 
light off because I am going to read my written testimony.
    [Laughter.]
    Ms. Carranza. My 89-year old mother made that trip with me 
and it was 48 hours. Thanks to Amtrak. First of all, I would 
like to thank you for the opportunity to appear before you and 
address the civil rights resolution process at the United 
States Department of Agriculture. I will have no statistics to 
testify about because numerical figures do not tell what the 
reality is about. The fact is that in the delivery of its 
federally mandated farm programs, the United States Department 
of Agriculture has like the Bridgestone/Firestone Corporation a 
broken, defective and deadly product that must be recalled.
    If a recall is not in order at USDA, what other reason can 
one give why certain farmers and ranchers are selectively 
chosen to be denied services at the FmHA/FSA county office 
level when Federal law states that no one, and I quote, ``shall 
be treated differently''?
    If a recall is not in order at USDA, why is the pattern of 
discrimination that begins at the county office level continued 
and enforced by entrenched FmHA/FSA state office officials 
regardless of what Congress mandates?
    If a recall is not in order at USDA, why is the mandatory 
in-house appeals system, one that ultimately reiterates the 
original death sentence, begun at the county office for the 
targeted family farmers and ranchers foolish enough to believe 
that there can be justice in that mortally flawed charade?
    If a recall is not in order at USDA, why do regional USDA 
Offices of General Counsel combine forces with the Department 
of Justice not just to remove farmers and ranchers from their 
land but go for the jugular effect? Then the selected farmers 
and ranch families are left penniless, humiliated and beaten 
with not one shred of human dignity left and in some cases 
self-inflicted death is an easier solution than the tortuous 
process delivered from those two government entities.
    If a recall is not in order at USDA, why has the civil 
rights resolution process been such a dismal bumbling farce? On 
November 13, 1998, Secretary of Agriculture Glickman spoke of 
resolving the discrimination fiasco as USDA. He quoted Dr. 
Martin Luther King, and I quote: ``An unaddressed injustice at 
any time is an injustice for all time.'' The Secretary should 
be reminded of what Dr. King instinctively knew, that it is the 
speaker's actions that validate the spoken word, not just the 
pacifying rhetoric.
    Let the Secretary and his civil rights team tell Joann 
Martens of Wolf Point, Montana, who filed a civil rights 
complaint in 1993 because she was denied the same servicing 
actions that were only given to her ex-husband and was then 
told by the county office supervisor, that women do not belong 
in farming and is still waiting for her case to be resolved, 
that USDA really does believe in justice.
    Let the Secretary and his civil rights team tell Sharon 
Mavity of Sidney, Montana, who filed a civil rights complaint 
in 1997 when she tried and failed to save her fourth generation 
family ranch for her and her sons because she was denied the 
loan servicing that was instead given to a selected young white 
male and is still waiting for her case to be resolved, that 
USDA really does believe in justice.
    Let the Secretary and his civil rights team tell Rosemary 
Love of Harlem, Montana, who filed a civil rights complaint in 
1997 and whose 36 year marriage ended 3 months ago because of 
the strain of fighting FmHA/FSA for 17 years and is still 
waiting for her case to be resolved, that USDA really does 
believe in justice.
    Let the Secretary and his civil rights team tell Jacky 
Shiplet of Livingston, Montana, who filed a civil rights 
complaint in 1996 after she was denied loan servicing by FmHA/
FSA, but young white males did receive loan servicing, and who 
has had to choose between food or medicine for her disabled 
husband, that USDA really does believe in justice.
    Let the Secretary and his civil rights team tell Dolly 
Stone of Browning, Montana, who last week had to stare down a 
sheriff's foreclosure sale on her ranch despite USDA's own 
moratorium on foreclosures for class members of the Keepseagle 
v. Glickman class action, that USDA really does believe in 
justice.
    Let the Secretary and his civil rights team tell Margaret 
Carranza, my 89-year old mother, who experienced the deliberate 
pattern of insufficient and repeated late funding from FmHA/FSA 
that is meant to drive certain farmers and ranchers into 
insolvency and bankruptcy, that the USDA really does believe in 
justice. The USDA in-house appeals process deliberately failed 
her by failing to make FmHA/FSA adhere to the regulations and 
rules that are supposed to regulate farm programs.
    The USDA civil rights process failed her at the time of the 
discrimination complaint partly because it had been dismantled 
by the Reagan/Bush administrations.
    I have to tell you that I am missing part of my testimony. 
Do you have it? Thank you. I apologize. I will begin again the 
last paragraph. Let the Secretary and his civil rights team 
tell Margaret Carranza, my 89-year old mother, who experienced 
the deliberate pattern of insufficient and repeated late 
funding from FmHA/FSA meant to drive certain farmers and 
ranchers into insolvency and bankruptcy, that USDA really does 
believe in justice.
    The USDA in-house appeals process deliberately failed her 
by failing to make FmHA/FSA adhere to the regulations and rules 
that are supposed to regulate farm programs. The USDA civil 
rights process failed her at the time of the discrimination 
complaint because it had been dismantled by the Reagan/Bush 
administrations in 1993.
    The Chapter 12 bankruptcy process failed her because the 
tentacles of FSA reached into that system as well. The state 
FSA office furious that a discrimination complaint had been 
filed refused to let the family operation into the Chapter 12 
protection unless they signed a drop dead agreement that signed 
away the discrimination complaint and all of their rights under 
due process guaranteed to them by law.
    Our congressional delegation failed her because when 
letters were written asking for their intervention, FmHA/FSA 
state and national officials responded denouncing her operation 
as the guilty party. Even elected representatives, like the 
general public, can also be guilty of believing that only 
government knows best and that the government is always right 
until it is too late, too late to stop an overzealous Assistant 
U.S. Attorney from declaring that she is aware of Secretary 
Glickman's moratorium against foreclosures on open USDA civil 
rights complaints, but she is going to bring the full force of 
the Federal Government down upon the Carranza women and make an 
example of them, and she did.
    The personal property was seized by the U.S. marshals and 
sold at public auction even though Dr. Jeremy Wu of USDA's 
Office of Civil Rights kept assuring the Carranza's that the 
sale would be stopped. When it was not, he would not return 
repeated phone calls.
    Personal family effects, baptismal records, family ranch 
records, family heirlooms are still on their former property 
because the same Assistant U.S. Attorney said, and I quote, she 
would ``have the FBI on their heads so fast it will make their 
heads spin'' if they attempted to retrieve their possessions 
from their former property now owned by FSA's predetermined 
buyer.
    The USDA Office of Civil Rights has failed Margaret 
Carranza miserably as well because they not only failed to 
protect her rights in the foreclosure process, but they have 
failed to honor her rights as a human being, the same rights 
that our country was founded upon, and I quote, ``that all men 
are created equal, that they are endowed by their creator with 
certain inalienable rights, and that among these are life, 
liberty and the pursuit of happiness.''
    I ask you today is seven years long enough for Margaret 
Carranza to wait for the justice that the Secretary 
pontificated about in 1998? What about the other women from 
Montana that I mentioned earlier? What about all the other 
farmers and ranchers, men and women, that this out of control 
FSA system has been allowed to selectively remove from farming 
and ranching? Senators, this is not an exaggerated 
unsubstantiated testimony that a Federal system you are 
responsible for is defective and that it must be fixed.
    What you have heard is the reality of our lived experience 
and no buck passing, denials, or stonewalling is going to make 
it go away because we the people upon whom the injustice was 
committed are not going to go away until the system is fixed. 
Change not just for us but for all of those who will be a 
target the next time someone walks into a USDA office and wants 
their land, too. Thank you.
    The Chairman. Thank you very much, Ms. Carranza.
    [The prepared statement of Ms. Carranza can be found in the 
appendix on page 212.]
    The Chairman. Mr. Connor.

      STATEMENT OF HAROLD CONNOR, UPPER MARLBORO, MARYLAND

        ACCOMPANIED BY JOSEPH D. GEBHARDT, ESQ.
    Mr. Connor. Good morning. My name is Harold Connor and I 
would like to thank the committee for giving me an opportunity 
to appear this morning. I have a longer statement, a longer 
written statement, and I would like to request that it be 
included in the record.
    The Chairman. It will be published in full.
    Mr. Connor. Thank you very much, and I will try to make my 
comments brief. As I said, my name is Harold Connor. I am an 
employee of the Farm Service Agency. I am currently the Deputy 
Director of the FSA Price Support Division here in Washington, 
DC, and we handle a number of programs including the Market 
Assistance Loan Program, the Loan Deficiency Payment Program, 
Small Hog Operation Payment Operation Program, and our programs 
provided more than $15 worth of financial assistance to the 
nation's farmers on 1999 crops.
    I began my career with FSA in 1971 while still in college 
and graduated from the University of Missouri and was hired as 
the first black county executive director for FSA in the state 
of Missouri, came to Washington in 1983, and within a few years 
after I got to Washington, I encountered my first significant 
racial discrimination within FSA. I filed a complaint but then 
after talking with some of my colleagues, both black and white 
colleagues, they mentioned that most people who filed 
complaints are marked, and in the future they have a very 
difficult time either obtaining promotions or they also would 
face some retaliation. I dropped that complaint.
    Things did not get any better on the job and within a 
couple of years I filed another complaint, carried that through 
to a settlement, and once I did finally come to settlement, but 
before I did reach a settlement, I had had severe and permanent 
damage to my health and my marriage. In 1976, I applied for a 
position as Director of the Audits and Investigations Group 
with the Farm Service Agency, and I thought I was well 
qualified for the position, had 12 years of experience, some 
seven and a half years as a county executive director, and I 
had also handled audits as a program specialist in Washington, 
DC
    The white selecting official selected a lesser qualified 
white for the position so I filed an EEO complaint under the 
Herron v. Glickman class action complaint that was brought 
against FSA by middle managers, grades 12, 13 and 14, African 
American managers in Washington. On December 14, 1999, I 
received a finding of discrimination from an EEOC judge and 
within a couple days after that, a representative of USDA 
falsely told The Washington Post that even though I received a 
favorable determination that I had already been promoted, which 
really kind of irritated me pretty much because we had not even 
come to any kind of decision.
    The EEOC judge recommended that because I had been 
discriminated against, that I be promoted to a grade 15 
position that was either in my current position or a position 
that was similar to the position that I had applied for. The 
position that I had applied for and been unfairly denied has 
since been abolished so that was not available. They also 
determined that I should receive back pay, back to June 9th of 
1996, and $10,000 in compensatory damages.
    The Office of Civil Rights turned the enforcement of these 
provisions back over to the Farm Service Agency, and they even 
gave Farm Service Agency the option of offering me whatever 
position they wanted to offer. What FSA offered me was a 
position that was especially created as assistant to a Schedule 
C political appointee and with no supervisory responsibility 
and no management responsibility and no major program 
responsibility.
    This did not fall in line with what the EEOC judge had 
decided that I should have because it was not substantially 
equivalent to the position I had applied for or the position 
that I was in. I turned that offer down and filed a 
noncompliance complaint with the USDA Office of Civil Rights. 
They did not bother to respond to my complaints, so I filed a 
complaint through my attorneys with the Office of Federal 
Operations with EEOC. I am confident that I am going to win my 
appeal there, but the problem with that is that it normally 
takes about two years for that complaint process to carry out 
so in the next two years I am going to have additional damage 
to my health waiting for a determination to be made.
    I do not believe that the Office of Civil Rights should 
ever have turned the enforcement of its rules over to FSA 
because they were the agency that had discriminated against me. 
The Office of Civil Rights takes a stance that seems to be 
trying to favor the agency that is involved in the 
discriminatory activity.
    They either take action or inaction depending on what is 
going to support management's position. For instance, a friend 
of mine, who is also in the Herron v. Glickman complaint, had a 
complaint of reprisal that was never investigated and there was 
no record, and yet the Office of Civil Rights decided to 
dismiss that case because it would be advantageous to 
management. By the Office of Civil Rights pro-management 
stance, it encourages those within the agency who are 
interested in retaliation.
    I have a particular case that or particular situation that 
I wanted to mention. We, within the Price Support Division, 
were trying to get some automated functions out to allow 
producers to request loan deficiency payments from home without 
making a trip to the office, and it would be totally automated 
to where they did not just have to key it in and print off an 
application and then send it in. Rather, it would be automated 
to the point where they could key it in, it can be processed, 
and we can issue the payment to them through electronic funds 
transfer.
    However, the division that we had to go through to get 
these processes put in place has just completely stymied us 
from day one. As a matter of fact, at one time the director of 
that division, acting director, informed his key people not to 
talk to myself, my immediate supervisor, who is also an African 
American, or the chief of our Automation Branch, Mr. George 
Stickels, who served up here as a congressional fellow for a 
period of time. This same person whom we have to go through to 
get automated functions put out raised a question at a 
manager's meeting as to what can be done about people who file 
multiple EEO complaints, and there are some more things that 
are in the record that we submitted.
    The main issue that I had today is that even though a 
representative of the Department said that I had already been 
promoted, I have not been promoted. This is some nine months 
after the determination was made. I have not been promoted. I 
also have not even received any back pay. As a matter of fact, 
the agency has not even begun to process my back pay. When I 
submitted an e-mail to the Human Resources Division asking 
about the status of my back pay, I was referred to an OGC 
attorney and that attorney said that they would not answer any 
of my questions. If I had any questions about this particular 
case, I would have to contact them through my attorney.
    With this hearing today, I would just like leave some 
recommendations of what the Department could do to help the 
Office of Civil Rights to kind of take a more active role and a 
more positive role in solving some of these employee 
complaints. The Office of Civil Rights should be more involved 
in the negotiation process when we are trying to negotiate 
settlements. They should have full power and authority to see 
that any orders that it sends down to agencies are fully 
carried out and properly carried out, and the Office of Civil 
Rights should also take a more active role in keeping the 
statistics on race and promotion in a format that could be 
useable in EEOC cases.
    As a matter of fact, the EEOC judge who heard our 
particular case said that the documentated statistics on race 
and promotion that were submitted by FSA were very unreliable 
and left much to be desired. Again, I would like to thank the 
committee for allowing me to have a few minutes and if possible 
I would like to have my attorney maybe say a couple of things.
    [The prepared statement of Mr. Connor can be found in the 
appendix on page 216.]
    The Chairman. Well, Mr. Connor, let me just ask--I will 
grant your wish, but it will need to be a brief comment because 
we need to proceed on to the next witness and to questions as I 
announced earlier.
    Mr. Connor. Yes, sir.
    The Chairman. We have permitted you and other witnesses to 
speak much more than the 5-minutes because you have a very 
important case to make, but please I will allow your attorney 
to make a comment, but be very brief if you can.
    Mr. Gebhardt. Thank you, Senator, and Senator Harkin. My 
name is Joseph D. Gebhardt, and I have been Mr. Connor's 
attorney for several years now, and I was the lead attorney and 
still am in the Herron v. Glickman class action on behalf of 
the middle management black employees at FSA.
    One thing that we have found in the case that really you 
should know about is that the Office of Civil Rights is sending 
its staff people to depositions in EEOC cases to defend 
management. They are acting as pseudo lawyers. Some of them are 
lawyers, and OCR is actually sending staff people to represent 
and defend managers at their depositions in these EEOC cases. 
When you wonder what those 120 employees are really doing, that 
is something that is going on.
    Now, Charles Rawls also told you that the OGC attorneys who 
are in the Civil Rights Division, he said it is a small and 
experienced group of people, that they work on a variety of 
civil rights issues and they give civil rights advice. What 
they really do is they defend management in the EEOC hearings. 
That is what the OGC civil rights lawyers do probably 90 
percent or 100 percent of their time. Every time we have a case 
at the EEOC, they are there representing management. In fact, 
the OGC lawyer told the EEOC judge that Harold Connor was not 
discriminated against.
    Well, the judge saw through the smoke and all that and 
ruled that there was discrimination, but that is what OGC's 
Civil Rights Division lawyers are doing. Mr. Rawls told you 
that they are experienced--they are a small group and they are 
not experienced. One of the lawyers we worked against in the 
Herron case had graduated from law school one year before.
    You have heard about this mismatch of skills in the Office 
of Civil Rights today. I will give you a good example. The 
former Environmental Justice Coordinator for USDA Central 
Office, Dr. Velma Charles-Shannon, they competed their 
position. They just put it up for bid because they transferred 
it out of departmental administration and the civil rights 
arena over to the Forest Service area. She had to compete for 
her job. Fair enough. She had a doctorate in toxicology and had 
some civil rights familiarity. She is a black woman, very high 
stature, had held a lot of responsible jobs in government 
before.
    They gave her job to a white woman who did not have any 
qualifications like that and who had applied for the job and 
had been interviewed over the phone; they just gave her job to 
a white person. Well, what did they do with Dr. Velma Charles-
Shannon? They made her an employment complaints specialist in 
Civil Rights. It is not that they are putting garbage employees 
in there. They are creating the skills mismatch in order to 
promote discrimination.
    Mr. Connor just told you about the back pay issue, that 
they have had nine months to get ready to pay his back pay. We 
gave them the calculations--what--about six months ago for him 
and Dr. Cliff Herron, who is in the audience, another 
discriminated against FSA employee, as found by EEOC and USDA. 
They have not paid Cliff Herron's back pay either. We have 
asked them to send us the calculations when they get the 
calculations done. They are not doing it. There is no interest 
in civil rights enforcement at USDA.
    Secretary Glickman's spokesman, Andy Solomon, lied in The 
Washington Post and said Harold Connor and Cliff Herron had 
already been promoted. We have let Secretary Glickman know 
that. We let the USDA/OGC lawyers know it. They have not taken 
any corrective steps. This goes to the top and that is all I 
have to say.
    The Chairman. Thank you very much. Mr. Pires.

 STATEMENT OF ALEXANDER PIRES, CONLON, FRANTZ, PHELAN & PIRES, 
                         WASHINGTON, DC

    Mr. Pires. Thank you very much. My name is Alex Pires. I 
represent farmers for a living and I wanted to talk about three 
things: the black farmers, the Native American farmers, and the 
Hispanic, women and Asian farmers. I started the black farmers 
case. I wrote the complaint. I started with the three original 
black farmers, Tim Pigford, Lloyd Shaffer and George Hall.
    The black farmers case was just a modest attempt to make 
changes at USDA. It was not intended to do anything more than 
that. My hope when we started was to get two or 3,000 black 
farmers hearings. You have heard today everybody testify about 
it. In the end there will be maybe 25,000. I need to tell you 
how crazy it is out there. Last week the Poorman Douglas 
Company, which handles the phone calls, got 127,000 phone 
calls. Yesterday, they got over 20,000 phone calls from black 
farmers complaining. My office everyday my phone system 
completely overloads--everyday. I have 13 lawyers. We are 
getting four to 500 pieces of mail and faxes a day on the black 
farmers case. The case is actually getting bigger.
    I did not come here to talk about that. I came here to talk 
about the problem. USDA, you are complaining to the wrong 
people. It is not the people in Washington that are the cause 
of the problem, in my opinion. It is at the local and state 
level. It is a very racist organization. It is white men 
running everything. All the local county committees are white 
males. How do they stay in power? You can only vote if you are 
a farmer in the program. You only get in the program if you get 
a loan. You only get a loan if you get approved. You only get 
approved if the people in power decide to give you a loan. It 
is self-perpetuating.
    In the history of this country, there has never been a 
black dominated county committee even in black counties. There 
has never been a Hispanic dominated committee even in Hispanic 
counties. Women are even more powerless. White males run the 
show. In the South, the local county offices fill out the forms 
for white people. Minorities do not get services. It is very 
simple. I have been doing this for 20 years. I have represented 
more farmers than anybody in the country. I see it everyday. I 
have been to more county hearings than anyone. That is what I 
do. The racism exists at the local level.
    Native Americans it is even worse. They get no services. It 
is a national disgrace. I am in the middle of that case I filed 
also called Keepseagle. The government is fighting the case. It 
is worse than the black farmers case. The Native Americans have 
been treated worse, if that is possible. They never get 
servicing. They never get attention. They never get loans. They 
will not settle with us. I understand that. They will not talk 
to you. Senator Conrad asked questions about it, as did others. 
I understand that. I am a big boy. It is litigation. In the 
end, we will prevail, but it will be bigger. We will be back in 
front of you and you will find out the Native American case 
will probably have 40 to 50,000 claims.
    The third problem is Hispanics, women and Asians. They are 
totally powerless. They are out of the program. When a woman 
walks in to a local county office, she has very little chance 
of getting good servicing. It is not these people in 
Washington. It is people at the local level. You do need to 
think about changing the system. The election process does not 
work well. White men will always be in power. You need to have 
a different system to get minorities in power at the local 
level. The state system, it does not work either.
    On the positive side, we have learned two things in the 
Pigford case. You can have private enterprise process cases. 
You can take the best part of the government, which is its 
money, and match it with the best part of the private sector, 
which is its processing, and we have done almost 20,000 cases 
in a year and a half. We can do a lot better job. What we have 
learned is that black farmers had a lot to say about the system 
and it has been good for everybody.
    It is very easy to complain about a lot of things. Have 
there been delays in getting checks? Yes. The judgment fund 
where the money comes from is overworked. The people in 
Washington have been intellectually honest about the settlement 
of the case. They have worked hard. We meet constantly about 
it. I do not think it is a case of bad faith there. Could we do 
better? Sure. We now have 46 retired judges writing decisions, 
11 arbitrators issuing arbitration decisions. The monitor's 
office has ten people. Like I said, I have 13, 14 full-time 
people working on it. I have another hundred lawyers that I 
brought in. The vast majority, by the way, are black.
    I could do a better job in the American Indian case if I 
could get it resolved. I need help from Congress. They need to 
help us get the government to the table and get started on all 
these cases. Native Americans have 25 years of stories to tell. 
We might as well get started and start telling them. There is 
no sense in acting like it is not there. It is almost 
impossible as a Native American to get a loan. I do not care 
whether you are in North Dakota, South Dakota, Montana.
    I spend all my time on the road. It is very, very hard 
because if Mr. Harkin comes into my office and sits down, I 
have two choices. I can sit down and help him fill out the 
forms and work with you, ask you questions, help you help me 
help you by asking you to fill out the form with me together. 
You and I work together. I can qualify you. If I do not want to 
qualify you because you are a Native American or I do not 
particularly care for you because you are a woman, you are 
never ever going to get approved. That is how the system works 
at the local level. If I do not want Mr. Harkin to get a loan, 
you, sir, will never get a loan. If I want you to get a loan, I 
do not care how many problems you have had, I can qualify you. 
That is basically how it works.
    Finally, these people here, all of them who I know, have 
worked very hard. These are very controversial cases. I am in 
the middle now with a whole mess of people trying to work on 
the reparations matter and I find that it is not my fault, for 
example, that I am a white person. I would prefer actually for 
what I do for a living if I was a black person, but I am not. I 
cannot say anything more about that other than it makes it more 
difficult.
    The black farmer is a wonderful and loving person. They 
have persevered through what no human being would normally do, 
much like a war. Because of John and others, they are making 
progress. It is difficult. There are fights constantly 
everyday, everyday. The Native American case, though, is 
actually worse, and I would ask you in your hearts to think 
about that. It is a national disgrace, not the problem these 
people behind me, at the local levels, and we need to do 
something about it.
    It is just money. It is just money that is needed to 
process these. Yes, there will be a billion dollars in the 
black farmers case. My gosh, that is nothing. We have given out 
over $100 billion in subsidies in the farm program in the last 
15 years. What is a billion dollars? It is not that much money.
    Finally, when you help us solve the Native American case, 
think about the women and the Asians and the Hispanics. We have 
until October 20 something to file the last case. We are 
working on the last case to file which involves them. It is 
very complicated. I know people do not like lawyers. I do not 
much like them myself. We have no other choice right now. I do 
not see the legislative solution for what we are doing and I do 
not see anyone else coming forward so we have these cases. I do 
thank you very much, though, for taking the time, and I will 
answer whatever questions about any of the three cases. Thank 
you.
    The Chairman. Thank you very much, Mr. Pires.
    [The prepared statment of Mr. Pires can be found in the 
appendix on page 229.]
    The Chairman. Let me begin by asking you a question. If I 
heard you right, one solution, and this oversimplifies it, but 
sort of work with me, you would literally contract out the 
process that is now occurring in the civil rights function in 
USDA perhaps to private lawyers? Is that a possibility?
    Mr. Pires. No. You have the right thought. In the black 
farmers case, the way we got 20,000 cases processed was to give 
it to private enterprise, retired judges and give them very 
short deadlines. In the Native American case, you are going to 
need that. You are never going to be able to go back to the 
government system and get it done. It is also wrong. You are 
not going to be able to get people to rule upon someone that 
they discriminated against. It is naturally inconsistent.
    You are going to have to do that with Hispanics, women and 
Asians also. In the bigger picture, the best thing that you 
could do to help farmers, to help American farmers, is to 
change the election system at the local level, to take the 
white male and take his power from him. I can give you two 
thoughts for what it is worth and you are far smarter than I. 
One is let people put their name in to be nominated in any 
county. 15 people come forward and then select, give the power 
to who you want to select so they can pick women, they can pick 
Asians, they can pick Hispanics. If it is a black county, in 
Green County, Alabama, and it is 71 percent black, why do we 
have five white people? Makes no sense to me.
    My gosh, what are we doing? Why could you not set up a new 
system, a new system for elections to take the power away from 
the white males. That would overnight make everybody's job up 
here better. We are yelling at the wrong people. By the time 
the problems get here, they are completely out of control, 
Senator.
    The Chairman. Well, just following through that idea, 
clearly in the 71 percent black county you mentioned, if 
everyone was eligible to vote and did vote----
    Mr. Pires. They are not, sir, because they do not have 
loans. That is the key. There are 71 percent of the people who 
are black, but the farmers who are in the program, the black 
farmers are probably only 30 percent, the white folks get all 
the loans. White folks have 70 percent of the votes. They vote 
the white people in and they just perpetuate the system. The 
election system does not work. It is self-perpetuating.
    You know how they give out loans in the South? White people 
get it first who are members of the committee. Their sons get 
it next. The seed guy, the implement dealer, the John Deere 
dealer, the white structure, all owned by white people first. 
After the money has been pretty much taken care of, they look 
to blacks next and they look to women last. Hispanics, if there 
are some. Now in the big four out West, in Texas, Colorado, 
California where Hispanics have more of a stick, they do a 
little bit better. Essentially white people take care of white 
males first. The election system does not remedy it.
    The Chairman. All right. Let us say we change the franchise 
so that everybody voted, not just those who have loans, for 
example, now then what happens?
    Mr. Pires. It would be great. It would be great. It would 
be wonderful.
    The Chairman. This is, without trying to force at least a 
conclusion, this is a legislative recommendation that you would 
make?
    Mr. Pires. Well, me--these people know more about it--that 
is what I would do. I would love to get the white male and put 
him in his place. I am getting to hate white men.
    The Chairman. Mr. Boyd.
    Mr. Boyd. Mr. Chairman, to reiterate on some of the things 
that Mr. Pires is talking about, half the problem is there are 
African Americans on these committees, but they cannot vote. In 
other words, they are sitting in the county. They are minority 
advisors to the committee that have no voting privileges and I 
cannot believe that we are sitting here in the year 2000 that 
we have committees, Federal committees that exist that deprive 
certain groups of people the ability to vote. That is one 
aspect of it.
    The county committee system was designed to steal land. It 
was a legal way to steal land from poor African American 
farmers and other socially disadvantaged farmers where the 
county committee people, and these are--Mr. Pires, you are 
right--the most powerful people, powerful white farmers in the 
communities that get together and say, OK, I am going to get 
Mr. Boyd's farm at a third of what it costs, and what they done 
was I had a county committee person come by my house. It was 
not advertised in the newspaper. He said, Mr. Boyd, I know you 
are in trouble, I am going to give you a chance to get out, 
come live on my farm if you sign these documents.
    He had my paperwork coming to my farm talking about selling 
my farm out. I had a few choice words for him, but I am running 
for office and I cannot say them today.
    The Chairman. I understand. Mr. Zippert.
    Mr. Zippert. There are a number of things, some of which 
Mr. Pires has pointed out, but actually technically everyone in 
the county who has a farm interest can vote in this election. 
However, the procedure under which you register to vote is not 
clear and the procedures under which people get ballots and the 
procedures on which ballots are counted, all of this has been, 
is really a scandal that needs to be looked at, and that is the 
problem.
    For instance, in some counties, the husband and wife each 
get a ballot if they are white, but black people, only the 
husband gets a ballot. This is based upon this whole cultural 
process that has been described here or racist process, 
depending on what you want to call it, and this is what goes on 
and then we have a chart, a detailed chart, in the report we 
submitted to you following page 32 which goes into some of the 
statistics that the Rural Coalition was able to get from FSA 
about these elections. We have a FOIA that they have yet to 
respond to. You might want to ask them about responding to 
that.
    The Chairman. What is your request?
    Mr. Zippert. Well, we requested information about the 
results of these elections and participation in these 
elections, number of ballots that were invalidated and reasons 
for it, and we have not gotten a response, and it sort of 
comes--Mr. Pires has described in simpler terms, but there are 
complexities in this and specifics in this and if you know the 
system, there are ways in which you can manipulate it to have 
the result that Mr. Pires describes and we have tried--the 
Rural Coalition suggested a voter registration form. It was 
initially adopted and then it was dropped. We have been talking 
to them for years about some kind of a proportional 
representation system. If we cannot get people elected, then 
the people who are appointed ought to have the right to vote.
    We have the situation where when the community nominates a 
black candidate that they want, the committee puts three other 
blacks on the ballot to dilute the black vote. There are all 
kinds of ways they have manipulated this system and it really 
deserves a hearing of its own with the people in USDA who are 
in charge of this because they have allowed this to go on.
    The Chairman. Let me ask for just a pause. Unfortunately a 
roll call vote has been called. I did not realize that was 
occurring and we are in the final minutes of it. I will return 
if you can stay and I would like to continue the hearing at 
that point. If you want to continue, Senator Harkin, please 
proceed.
    Senator Harkin. I just want to say I have got another thing 
I have got to go to right after this vote and I do not know how 
much longer we are going to be on this vote, but I just want to 
thank you all for being here and I will try to return, but I 
really do think we are going to have to look at the selection 
process that you are talking about and try to restructure this. 
It almost seems like we need almost like a voting rights act 
for agriculture, a modern-day voting rights act that will be 
not just sit back but actually will be proactive, actually go 
out and do some things like that. I hope I can get back, but if 
not I want to thank you all very much and you have made great 
suggestions. We will followup on that.
    [Recess.]
    The Chairman. The hearing is resumed. Did you have further 
comments, Mr. Lucas, with regard to we were discussing the 
voting situation with regard to county committees, and I do not 
know whether Senator Harkin pursued that further or whether you 
have a comment on that?
    Mr. Lucas. I agree with my colleagues on the panel, 
especially with John Boyd saying that we have gone through a 
civil rights struggle and you still have people, African 
Americans, who supposedly are on a committee, that cannot vote. 
That is appalling as we move into the 21st century. That the 
comments and the breadth of my colleague to my left talking 
about the whole voting process. I would have to add that the 
problem does not just rest with the county committees. We have 
people in Washington and political people in Washington, some 
of them, some of your former colleagues who are now working at 
the Department of Agriculture, who are beginning to act like 
the culture, the plantation mentality that has existed in the 
department so long has now come to the Department of 
Agriculture and they are beginning to act just like those 
people who are doing all this harm.
    I think that if the programs were still administered 
properly, once the complaints rise up and those that do get 
through the system, They are people in Washington in some of 
these offices, and by the way some of those people look like 
me. It is not just a situation where we are putting it on all 
white males. We have Hispanics and blacks in very high 
positions in the USDA and they are in some of these offices 
around the country who are also taking part in that 
discrimination. I do not want to make it seem like you let the 
political appointees around the Secretary and some of the 
assistant secretaries in the administration, administrators and 
managers off the hook.
    I think the problem is you cannot put a band-aid on a 
cancer and that is what you are doing if you only deal with one 
piece of it. You have got to hold these people accountable and 
fire these people for discriminating and ruin the lives of so 
many American citizens, both in the Department of Agriculture 
and outside.
    The Chairman. All right. Now, we have discussed at least 
the three parts of the program, and there may be more in the 
class action suits--Mr. Pires had discussed and offered some 
counsel on that--the problems of discrimination in the field 
with regard to program discrimination, and you are now raising 
an important point that you raised in your testimony originally 
that the problem may lie with the management of the department.
    You know let us just take a look at that for a moment. Sort 
of start with the Secretary, the assistant secretaries, other 
people. Many of these persons are appointed by the president of 
the United States depending upon which administration comes and 
is confirmed by this committee. Is the problem at that level or 
is the problem at levels below the political appointees, that 
is persons who have some status through the civil service who 
proceed on really through several administrations, or how can 
you give us advice as to where we look?
    Mr. Lucas. To be very short, I notice that Mr. Boyd will 
probably have some comments on that, too. What you have is the 
Office of General Counsel who told the American public that 
there was no discrimination of black farmers are also saying in 
the case of the employees, and you got over 15, almost 18 class 
actions of employees. They, too, are saying the same thing they 
said about the black farmer case. This committee should order 
the Office of General Counsel, i.e., Charlie Rawls, to cease 
quoting from Rule 23 and being a barrier to settlement of these 
complaints.
    I think we could have settled the black farmer complaint at 
a much lower level than $1 billion if the U.S. Department of 
Agriculture Office of General Counsel would have listened to 
the attorneys and to the farmers. These cases were brought to 
them early on, but they would not listen--Mr. Pires, John Boyd, 
Pigford--and what you have is a culture within the Department 
of Agriculture and some of these people are political 
appointees, i.e., the Office of General Counsel, or i.e., the 
Director of Civil Rights, and now you have Mr. Winningham 
overseeing some of the same cases that he was reviewing when he 
was at Farm Service Agency. That is also a conflict of interest 
but they will tell you that he is the best person qualified.
    I would say to you that you have got to get to the problem 
holistically and you have got to order the Office of General 
Counsel to stop interfering with the policy of this Secretary 
who says he wants the complaint settled, but once it leaves his 
lips, it goes into a deep hole and the Office of General 
Counsel and the Office of Civil Rights and certain people who 
work there are seeing to it that these class actions of women, 
Hispanics and Asians are not resolved. You should demand and 
the American taxpayer demand that they come to the table and 
settle these complaints and not have a similar situation that 
we had with the case of the black farmers. It is arrogance. It 
is indifference and Mr. Chair, you have the power to change it.
    The Chairman. Well, perhaps, but let me just try to 
delineate what these powers are. We have oversight hearings. We 
are having one now and we have the ability to offer 
legislation. That is our prerogative here in the Congress if it 
is signed by the president and if we have it through two 
houses. Ultimately there are people appointed by the president 
and members of the cabinet, subcabinet, they are confirmed by 
our committee and we try to ask questions of them, and the 
gentleman now who is handling the thing, Mr. Fiddick, came 
before the committee, as he pointed out, a year ago and seemed 
to us, at least at that point, to be a person that might make 
some headway in the system. That may or may not be the case.
    At least that is the sort of judgment that we have an 
opportunity to make. We do not manage the department. We try to 
help the department by illuminating these problems and you have 
been helpful in that respect today. I am just trying to come to 
grips with the levels. Is the Secretary empowered to change the 
council or at what level really is somebody in charge at the 
department?
    Mr. Lucas. Let me say this. The effort of former Secretary 
Espy to change the department and get to the culture with the 
employees and the farmers was admirable. The effort of this 
Secretary and the effort of this president who sent people down 
to the Department of Agriculture to solve this problem, and 
some of them are political appointees, have not served this 
president and this Secretary and this nation well. It is time--
--
    The Chairman. Then perhaps they should remove them. Is that 
their----
    Mr. Lucas. I think it is time to make some changes at the 
very top. You need to not have Mr. Fiddick overseeing civil 
rights because there is a conflict of interest. The Office of 
General Counsel should cease to be a barrier and all the 
reports that you had before this settlement, OGC was considered 
hostile to civil rights, especially to the black farmer 
situation. I do not see any change in that to this day. That is 
why you have increase of class actions by Hispanics, Asians, 
disabled, because you have an indifferent management that 
spends all its time and its effort supporting people in the 
courts and at these hearings with the taxpayers' money by 
sending OGC lawyers to protect them against us. They have made 
in so many words, Mr. Chair, turned good, decent American 
citizens into advocates and that should not be.
    The Chairman. Mr. Boyd.
    Mr. Boyd. Mr. Chairman, that if you look at Secretary 
Glickman as the overall view, he has tried. I agree with 
Lawrence that he had some inside people that are ill advising 
him on a lot of issues, Lawrence, as well, but where we really 
need to take a strong look at, Mr. Chairman, is the leadership 
within the Farm Service Agency as it relates to farmers, all 
farmers, whether you are talking about Hispanic farmers, Mr. 
Pires or the Indians or the black farmers. The gut and the root 
of the problem lies within Farm Service Agency. Why do we have 
a settlement of a billion dollars where we have not taken a 
strong look at the leadership of the agency that basically 
caused this discrimination?
    That is Farm Service Agency and if this committee would 
take a strong look at the leadership, possibly bring us some 
new leadership in Farm Service Agency, and then take a strong 
look at the local leadership just like Mr. Pires talked about, 
if someone has 15 or 20 complaints on them down in Mecklenburg 
or Brunswick County, Virginia, where a man was found sleeping 
when he was supposed to take application. He said the 
atmospheric pressure made him go to sleep on CBS 60 Minutes, 
this kind of nonsense, if we take a look at those people and 
hold those kind of people accountable, Mr. Chairman, I do not 
think it will take long for that information to trickle down 
through the system.
    You know bad news travels fast. If we made a few heads 
roll--I am going to go ahead and say the right terminology--I 
think that you will see a big difference in Farm Service 
Agency.
    The Chairman. Ms. Carranza.
    Ms. Carranza. I would like to reiterate the same thing. I 
would be the last person to defend Rosalind Gray. I have to say 
that I do not believe Ms. Gray caused the discrimination nor 
anybody in the Office of Civil Rights. They have been faulty in 
resolving this, but the big stumbling block from what I have 
seen in the Montana cases is the Regional Office of General 
Counsel and Mr. Rawls himself and the focus cannot be lost here 
that it is FSA from not the county committee but the county 
supervisor is the person who establishes what is going to 
happen and he is FSA.
    The county committee is just a bunch of dumb farmers in my 
county, like myself, but they take their direction from that 
person and that person, the county supervisor, takes his 
direction from the state office, and those two entities are 
protecting their ass. There is no other way of saying it, and 
there is a regulation that was passed by the Secretary's Office 
on June 30 of this year that said that when a USDA employee was 
found guilty of discrimination after a settlement had been 
reached, that those persons would be punished and that is what 
is stopping our cases from being resolved because once those 
settlements are finalized, those people's heads are going to 
roll and they are protecting themselves.
    The Chairman. Mr. Zippert.
    Mr. Zippert. I would just support the idea that some close 
look needs to be taken at the middle management levels, the 
state office level and the county level of the Farm Services 
Agency, because that is where a lot of the problem is and a lot 
of the decisions about credit and acreage and in relation to 
these committees. I would mention to you that this morning we 
had a presentation from the Inspector General and he was not 
aware of the things that we have brought out here about the 
problems in the democratic--he called it a democratic system 
and he was very proud of it. We need to go back and talk with 
the Inspector General about the standards on which he is 
judging this and maybe bring to his attention--I do not know if 
he stayed for the rest of the hearing--but we need to bring to 
his attention some of the other things that was said in this 
hearing.
    I think there is blame to go around here, that there are 
other people. You know if the person who oversees the process 
like that does not understand that they are in a lot of places 
in the South and probably places in Indian country, that there 
are problems with the way these committees work, then the whole 
premise on which he is examining the program may be wrong. I 
would say that we need to look at that. We need to look at FSA. 
We might need to look at FSA in comparison to some other groups 
like NRCS, maybe Foreign Agriculture Service, some others, who 
may be doing better and see where the problems are in that 
regard.
    If they really want to do an intensive internal look, I am 
not saying--there are probably complaints everywhere, but there 
are probably more complaints in FSA than anywhere else.
    The Chairman. Mr. Zippert, I just want to express 
appreciation to you. You have made reference to it and I would 
acknowledge the statistical data with regard to the elections, 
the procedures and what have you, which are very important 
illumination of this hearing and we will make certain that the 
Secretary, the Inspector General, and others have all of that 
testimony so that everyone at least is instructed as we have 
been by your testimony. Mr. Pires.
    Mr. Pires. Just a couple of things. I am trying to put 
myself in your shoes, if I may, to see what would be most 
helpful to you. There are just a couple of things that are very 
interesting about USDA and it is pure power. It is the second 
biggest Federal agency, but it is bigger in a different way. It 
is not raw dollars. It has a presence everywhere like the post 
office. We had until very recently 3,000 county offices. There 
is less now, maybe 2,500, but in agricultural America, USDA has 
a big presence everywhere. It has sometimes in some counties 
two offices, let alone one.
    There is a mind-set, and the mind-set that has been 
established, as I mentioned earlier, is that white males rule, 
but there is another mind-set, and that is when you go into the 
office, the mind-set that should be present is this is my 
government, I am coming in, I need a loan to farm. Farming is 
based upon borrowing in the spring, paying back after harvest 
in the fall unless you have a winter crop. This is still very 
much an agricultural country. USDA has tremendous lending 
ability. It is really one of the largest lenders in the world, 
but it is even deeper than that, Senator, because they give 
disaster programs, disaster loans. You are constantly trying to 
reach in there and look around the country, find out who is in 
trouble, come up with a disaster program, whether it is 
Indiana, this year, or Georgia. You know what you have to do 
every year.
    What about everybody else who is not a white male? Women--
you need to understand women are completely out of the system. 
To be a woman and go into a county office and think you are 
going to be serviced is a pipe dream. You are not going to get 
serviced because they are not attune to that. Hispanics, who 
are becoming an ever-increasing part of our population, 
particularly in the big four, California, Texas, Colorado, New 
Mexico, and they get very, very poor service. They are 
conditioned to be careful to go in to not to be as aggressive 
as the white male is.
    I can tell you in most parts of the South and the Midwest, 
white people are so used to service, they come in and they say 
how are you doing on my application? Their applications are 
filled out by the staff. How am I doing? How is my application 
coming? How am I doing this year? They expect the white 
structure to service them. It is very rare that a Hispanic 
person or a woman or a Native American ever walk into an office 
and say how is my application? Know what he would get or she 
would get? They would get an answer have a seat and I will get 
to you, and maybe they will and maybe they will not.
    I think for you, Mr. Chairman, the election process is one 
area and the second is if there was a little bit more of an 
oversight process where the Senate knew this year--for example, 
you asked a very good question, in terms of programs, how does 
USDA do against other programs as a percentage of complaints? 
Nobody knows. They only know EEOC. Nobody knows about programs.
    Second, nobody knows what happens to Hispanics, Native 
Americans, white women when they walk in. Nobody pays attention 
to it. It is not a statistic that is--yet Hispanics are going 
to end up being 20 percent of our population. We need help 
statistically. We need help.
    The Chairman. Yes, Mr. Boyd.
    Mr. Boyd. Mr. Chairman, I am going to have to leave in a 
minute. I wanted to make these last closing statements. Down in 
the same county I was talking about, the individual was 
sleeping in the office, there were certain days that African 
American farmers only could come in the office and get service.
    Mr. Pires. Black Thursday.
    Mr. Boyd. That was on--that is right.
    Mr. Pires. It is called Black Thursdays.
    Mr. Boyd. On Thursday, that was the only day you can come 
into the office. If a white farmer came in before you, he would 
see you and speak with him first. He would open the door while 
he discussed my personal business very loudly. Overall if we 
can bring some dignity and respect to the United States 
Department of Agriculture where it can treat its customers with 
dignity and respect, I do not think that would be asking too 
much.
    Certainly we found a way to disburse $8 billion in disaster 
relief last year, that we can find a way to disburse one or 
$1.5 billion to a group of needy people that desperately need 
that money. They are sitting at home right now waiting. They 
are sitting here now watching this hearing, wondering what is 
going to come out of this hearing. Will I get some results? 
Will I receive my check? A lot of these farmers have letters 
that say you will receive your check in 90 days. 90 days has 
come and gone twice and they have not received their checks.
    If the committee could look into it and ask the Justice 
Department to look into it as well, to find out what can be 
done to speed up the payment process for these much needed 
farmers, these are some things that we can do now and I hope 
that this committee will take those things into consideration 
and I hope that they will listen to the other distinguished 
members of this panel and come out of this hearing with some 
resolutions. Thank you, Mr. Chairman, for giving me the 
opportunity to speak with you this afternoon. Thank you very 
much.
    The Chairman. Thank you for your testimony. We will raise 
the payment question with the department.
    Mr. Boyd. OK.
    The Chairman. As well as many other questions.
    Mr. Boyd. Sure.
    The Chairman. In specific answer to your request.
    Mr. Boyd. Thank you.
    The Chairman. Mr. Lucas.
    Mr. Lucas. Senator Lugar, as I heard the Office of 
Inspector General rave about how well things are going under 
the new leadership, I bring to mind three individual incidents 
which falls in the house of the Assistant Secretary for 
Administration and under Mr. Winningham. Very recently I was 
told before coming to these hearings that a woman in the state 
of Delaware filed a complaint of a housing complaint and was 
processed--was supposed to be processed under the 
administration, under new leadership of Mr. Winningham. This 
lady lost her property last week because the U.S. Department of 
Agriculture in this administration that you heard people raving 
about did not process her complaint as they do farmers.
    Let me give you two examples which falls in the house of 
the Assistant Secretary for Administration. I am questioning 
the accountability at the top and that is what you were asking. 
Here we have people, an Assistant Secretary for Administration, 
who you know and have worked with, called a jungle bunny and a 
wonder monkey by a group of white employees after the work 
hour, but yet and still the Office of Administration is not 
going to hold those individuals accountable. Under the same 
house when it comes to accountability, just recently a high 
level official told an Asian at an Asian meeting that if you 
suffer the glass ceiling, and Asians suffer from the glass 
ceiling at USDA at the GS-13 level, that person was told go and 
find another job.
    Now what I am saying to you is that we have a problem with 
leadership as it relates to civil rights and this, what you 
heard this morning, trying to put it all on the employee, it is 
a cultural and systemic problem and some of the people that 
have been given the job recently to do that job has not done it 
well. If we are going to hold the people in the Office of Civil 
Rights accountable, we need to hold Mr. Fiddick, we need to 
hold Mr. Winningham and we need to hold Mr. Rawls equally 
accountable for the mess that is going on at USDA and not doing 
something about the problem and not settling these class 
actions and not settling these employee complaints. That is 
where the problem is and we need to do something about that, 
too. Thank you.
    The Chairman. Thank you. Yes, Mr. Connor.
    Mr. Connor. What I would like to say is that before we 
filed our class action complaint, we actually had gone 
informally to upper level people. Actually, there was Mr. 
Roemiger, Mr. Rawls in a different position at that time, Mr. 
Dallis Smith, and these were people at the Secretary's level, 
deputy secretaries, and under secretaries. We discussed the 
issues we had with the Farm Service Agency on an informal basis 
and offered our services to help them to solve these problems.
    Basically, we just got the old wink and OK and everything 
is fine, but basically they did not listen to us. They just 
kept pushing us down and wanted to do a study and finally when 
we got the impression that we were being put off, we just went 
ahead and filed a complaint because we were not getting 
anywhere internally. That gets back to what we were talking 
about before. It is throughout the agency. The people up above 
want to put that nice face on it, but they had the opportunity 
right there to, as a matter of fact, that would have prevented 
us probably from filing our class complaint had they just 
listened to us and tried to do some things informally, and you 
have that culture inside the agency starting from top to 
bottom.
    The Chairman. I thank each one of you. Ms. Carranza, do you 
have a final comment?
    Ms. Carranza. Thank you. I would like a final comment.
    The Chairman. Yes.
    Ms. Carranza. For those of us that are not in a class 
action or part of any lawsuit, we have wanted our cases to be 
settled in the administrative process. There is a Senate bill 
in the Senate. It is called the USDA Civil Rights Resolution 
Act of 2000, Senate bill 2079. We would like you to consider 
that as an avenue for us to have our cases resolved. I would 
also like to ask for the record if the testimony submitted by 
the other Montana women could also be included in the record?
    The Chairman. Yes, it will be included in full.
    Ms. Carranza. Thank you.
    The Chairman. I thank each one of you. You have been 
illuminating, articulate and patient in a hearing that has been 
the better part of four hours but time very well spent. We are 
grateful to you. We will try to follow through on the 
suggestions you have made. The hearing is adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           September 12, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED7] 70527.001

[GRAPHIC] [TIFF OMITTED] 70527.002

[GRAPHIC] [TIFF OMITTED] 70527.003

[GRAPHIC] [TIFF OMITTED] 70527.004

[GRAPHIC] [TIFF OMITTED] 70527.005

[GRAPHIC] [TIFF OMITTED] 70527.006

[GRAPHIC] [TIFF OMITTED] 70527.009

[GRAPHIC] [TIFF OMITTED] 70527.010

[GRAPHIC] [TIFF OMITTED] 70527.011

[GRAPHIC] [TIFF OMITTED] 70527.012

[GRAPHIC] [TIFF OMITTED] 70527.013

[GRAPHIC] [TIFF OMITTED] 70527.014

[GRAPHIC] [TIFF OMITTED] 70527.015

[GRAPHIC] [TIFF OMITTED] 70527.016

[GRAPHIC] [TIFF OMITTED] 70527.017

[GRAPHIC] [TIFF OMITTED] 70527.018

[GRAPHIC] [TIFF OMITTED] 70527.019

[GRAPHIC] [TIFF OMITTED] 70527.020

[GRAPHIC] [TIFF OMITTED] 70527.021

[GRAPHIC] [TIFF OMITTED] 70527.022

[GRAPHIC] [TIFF OMITTED] 70527.023

[GRAPHIC] [TIFF OMITTED] 70527.024

[GRAPHIC] [TIFF OMITTED] 70527.025

[GRAPHIC] [TIFF OMITTED] 70527.026

[GRAPHIC] [TIFF OMITTED] 70527.027

[GRAPHIC] [TIFF OMITTED] 70527.028

[GRAPHIC] [TIFF OMITTED] 70527.029

[GRAPHIC] [TIFF OMITTED] 70527.030

[GRAPHIC] [TIFF OMITTED] 70527.031

[GRAPHIC] [TIFF OMITTED] 70527.032

[GRAPHIC] [TIFF OMITTED] 70527.033

[GRAPHIC] [TIFF OMITTED] 70527.034

[GRAPHIC] [TIFF OMITTED] 70527.035

[GRAPHIC] [TIFF OMITTED] 70527.036

[GRAPHIC] [TIFF OMITTED] 70527.037

[GRAPHIC] [TIFF OMITTED] 70527.038

[GRAPHIC] [TIFF OMITTED] 70527.039

[GRAPHIC] [TIFF OMITTED] 70527.040

[GRAPHIC] [TIFF OMITTED] 70527.041

[GRAPHIC] [TIFF OMITTED] 70527.042

[GRAPHIC] [TIFF OMITTED] 70527.043

[GRAPHIC] [TIFF OMITTED] 70527.044

[GRAPHIC] [TIFF OMITTED] 70527.045

[GRAPHIC] [TIFF OMITTED] 70527.046

[GRAPHIC] [TIFF OMITTED] 70527.047

[GRAPHIC] [TIFF OMITTED] 70527.048

[GRAPHIC] [TIFF OMITTED] 70527.049

[GRAPHIC] [TIFF OMITTED] 70527.050

[GRAPHIC] [TIFF OMITTED] 70527.051

[GRAPHIC] [TIFF OMITTED] 70527.052

[GRAPHIC] [TIFF OMITTED] 70527.053

[GRAPHIC] [TIFF OMITTED] 70527.054

[GRAPHIC] [TIFF OMITTED] 70527.055

[GRAPHIC] [TIFF OMITTED] 70527.056

[GRAPHIC] [TIFF OMITTED] 70527.057

[GRAPHIC] [TIFF OMITTED] 70527.058

[GRAPHIC] [TIFF OMITTED] 70527.059

[GRAPHIC] [TIFF OMITTED] 70527.060

[GRAPHIC] [TIFF OMITTED] 70527.061

[GRAPHIC] [TIFF OMITTED] 70527.062

[GRAPHIC] [TIFF OMITTED] 70527.063

[GRAPHIC] [TIFF OMITTED] 70527.064

[GRAPHIC] [TIFF OMITTED] 70527.065

[GRAPHIC] [TIFF OMITTED] 70527.066

[GRAPHIC] [TIFF OMITTED] 70527.067

[GRAPHIC] [TIFF OMITTED] 70527.068

[GRAPHIC] [TIFF OMITTED] 70527.069

[GRAPHIC] [TIFF OMITTED] 70527.070

[GRAPHIC] [TIFF OMITTED] 70527.071

[GRAPHIC] [TIFF OMITTED] 70527.072

[GRAPHIC] [TIFF OMITTED] 70527.073

[GRAPHIC] [TIFF OMITTED] 70527.074

[GRAPHIC] [TIFF OMITTED] 70527.075

[GRAPHIC] [TIFF OMITTED] 70527.076

[GRAPHIC] [TIFF OMITTED] 70527.077

[GRAPHIC] [TIFF OMITTED] 70527.078

[GRAPHIC] [TIFF OMITTED] 70527.079

[GRAPHIC] [TIFF OMITTED] 70527.080

[GRAPHIC] [TIFF OMITTED] 70527.081

[GRAPHIC] [TIFF OMITTED] 70527.082

[GRAPHIC] [TIFF OMITTED] 70527.083

[GRAPHIC] [TIFF OMITTED] 70527.084

[GRAPHIC] [TIFF OMITTED] 70527.085

[GRAPHIC] [TIFF OMITTED] 70527.086

[GRAPHIC] [TIFF OMITTED] 70527.087

[GRAPHIC] [TIFF OMITTED] 70527.088

[GRAPHIC] [TIFF OMITTED] 70527.089

[GRAPHIC] [TIFF OMITTED] 70527.090

[GRAPHIC] [TIFF OMITTED] 70527.091

[GRAPHIC] [TIFF OMITTED] 70527.092

[GRAPHIC] [TIFF OMITTED] 70527.093

[GRAPHIC] [TIFF OMITTED] 70527.094

[GRAPHIC] [TIFF OMITTED] 70527.095

[GRAPHIC] [TIFF OMITTED] 70527.096

[GRAPHIC] [TIFF OMITTED] 70527.097

[GRAPHIC] [TIFF OMITTED] 70527.098

[GRAPHIC] [TIFF OMITTED] 70527.099

[GRAPHIC] [TIFF OMITTED] 70527.100

[GRAPHIC] [TIFF OMITTED] 70527.101

[GRAPHIC] [TIFF OMITTED] 70527.102

[GRAPHIC] [TIFF OMITTED] 70527.103

[GRAPHIC] [TIFF OMITTED] 70527.104

[GRAPHIC] [TIFF OMITTED] 70527.105

[GRAPHIC] [TIFF OMITTED] 70527.106

[GRAPHIC] [TIFF OMITTED] 70527.107

[GRAPHIC] [TIFF OMITTED] 70527.108

[GRAPHIC] [TIFF OMITTED] 70527.109

[GRAPHIC] [TIFF OMITTED] 70527.110

[GRAPHIC] [TIFF OMITTED] 70527.111

[GRAPHIC] [TIFF OMITTED] 70527.112

[GRAPHIC] [TIFF OMITTED] 70527.113

[GRAPHIC] [TIFF OMITTED] 70527.114

[GRAPHIC] [TIFF OMITTED] 70527.115

[GRAPHIC] [TIFF OMITTED] 70527.116

[GRAPHIC] [TIFF OMITTED] 70527.117

[GRAPHIC] [TIFF OMITTED] 70527.118

[GRAPHIC] [TIFF OMITTED] 70527.119

[GRAPHIC] [TIFF OMITTED] 70527.120

[GRAPHIC] [TIFF OMITTED] 70527.121

[GRAPHIC] [TIFF OMITTED] 70527.122

[GRAPHIC] [TIFF OMITTED] 70527.123

[GRAPHIC] [TIFF OMITTED] 70527.124

[GRAPHIC] [TIFF OMITTED] 70527.125

[GRAPHIC] [TIFF OMITTED] 70527.126

[GRAPHIC] [TIFF OMITTED] 70527.127

[GRAPHIC] [TIFF OMITTED] 70527.128

[GRAPHIC] [TIFF OMITTED] 70527.129

[GRAPHIC] [TIFF OMITTED] 70527.130

[GRAPHIC] [TIFF OMITTED] 70527.131

[GRAPHIC] [TIFF OMITTED] 70527.132

[GRAPHIC] [TIFF OMITTED] 70527.133

[GRAPHIC] [TIFF OMITTED] 70527.134

[GRAPHIC] [TIFF OMITTED] 70527.135

[GRAPHIC] [TIFF OMITTED] 70527.136

[GRAPHIC] [TIFF OMITTED] 70527.137

[GRAPHIC] [TIFF OMITTED] 70527.138

[GRAPHIC] [TIFF OMITTED] 70527.139

[GRAPHIC] [TIFF OMITTED] 70527.140

[GRAPHIC] [TIFF OMITTED] 70527.141

[GRAPHIC] [TIFF OMITTED] 70527.142

[GRAPHIC] [TIFF OMITTED] 70527.143

[GRAPHIC] [TIFF OMITTED] 70527.144

[GRAPHIC] [TIFF OMITTED] 70527.145

[GRAPHIC] [TIFF OMITTED] 70527.146

[GRAPHIC] [TIFF OMITTED] 70527.147

[GRAPHIC] [TIFF OMITTED] 70527.148

[GRAPHIC] [TIFF OMITTED] 70527.149

[GRAPHIC] [TIFF OMITTED] 70527.150

[GRAPHIC] [TIFF OMITTED] 70527.151

[GRAPHIC] [TIFF OMITTED] 70527.152

[GRAPHIC] [TIFF OMITTED] 70527.166

[GRAPHIC] [TIFF OMITTED] 70527.167

[GRAPHIC] [TIFF OMITTED] 70527.168

[GRAPHIC] [TIFF OMITTED] 70527.169

[GRAPHIC] [TIFF OMITTED] 70527.153

[GRAPHIC] [TIFF OMITTED] 70527.154

[GRAPHIC] [TIFF OMITTED] 70527.155

[GRAPHIC] [TIFF OMITTED] 70527.156

[GRAPHIC] [TIFF OMITTED] 70527.157

[GRAPHIC] [TIFF OMITTED] 70527.158

[GRAPHIC] [TIFF OMITTED] 70527.159

[GRAPHIC] [TIFF OMITTED] 70527.160

[GRAPHIC] [TIFF OMITTED] 70527.161

[GRAPHIC] [TIFF OMITTED] 70527.162

[GRAPHIC] [TIFF OMITTED] 70527.163

[GRAPHIC] [TIFF OMITTED] 70527.164

[GRAPHIC] [TIFF OMITTED] 70527.165

[GRAPHIC] [TIFF OMITTED] 70527.188

[GRAPHIC] [TIFF OMITTED] 70527.189

[GRAPHIC] [TIFF OMITTED] 70527.190

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 12, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 70527.007

[GRAPHIC] [TIFF OMITTED] 70527.008

[GRAPHIC] [TIFF OMITTED] 70527.185

[GRAPHIC] [TIFF OMITTED] 70527.186

[GRAPHIC] [TIFF OMITTED] 70527.187

[GRAPHIC] [TIFF OMITTED] 70527.170

[GRAPHIC] [TIFF OMITTED] 70527.171

[GRAPHIC] [TIFF OMITTED] 70527.172

[GRAPHIC] [TIFF OMITTED] 70527.173

[GRAPHIC] [TIFF OMITTED] 70527.174

[GRAPHIC] [TIFF OMITTED] 70527.175

[GRAPHIC] [TIFF OMITTED] 70527.176

[GRAPHIC] [TIFF OMITTED] 70527.177

[GRAPHIC] [TIFF OMITTED] 70527.178

[GRAPHIC] [TIFF OMITTED] 70527.179

[GRAPHIC] [TIFF OMITTED] 70527.180

[GRAPHIC] [TIFF OMITTED] 70527.181

[GRAPHIC] [TIFF OMITTED] 70527.182

[GRAPHIC] [TIFF OMITTED] 70527.183

[GRAPHIC] [TIFF OMITTED] 70527.184

[GRAPHIC] [TIFF OMITTED] 70527.191

[GRAPHIC] [TIFF OMITTED] 70527.192

[GRAPHIC] [TIFF OMITTED] 70527.193

[GRAPHIC] [TIFF OMITTED] 70527.194

[GRAPHIC] [TIFF OMITTED] 70527.196

[GRAPHIC] [TIFF OMITTED] 70527.197

[GRAPHIC] [TIFF OMITTED] 70527.198

[GRAPHIC] [TIFF OMITTED] 70527.199

[GRAPHIC] [TIFF OMITTED] 70527.200

[GRAPHIC] [TIFF OMITTED] 70527.201

[GRAPHIC] [TIFF OMITTED] 70527.202

[GRAPHIC] [TIFF OMITTED] 70527.203

[GRAPHIC] [TIFF OMITTED] 70527.204

[GRAPHIC] [TIFF OMITTED] 70527.205

[GRAPHIC] [TIFF OMITTED] 70527.206

[GRAPHIC] [TIFF OMITTED] 70527.207

[GRAPHIC] [TIFF OMITTED] 70527.208

[GRAPHIC] [TIFF OMITTED] 70527.209

[GRAPHIC] [TIFF OMITTED] 70527.210

[GRAPHIC] [TIFF OMITTED] 70527.211

[GRAPHIC] [TIFF OMITTED] 70527.212

[GRAPHIC] [TIFF OMITTED] 70527.213

[GRAPHIC] [TIFF OMITTED] 70527.214

[GRAPHIC] [TIFF OMITTED] 70527.215

[GRAPHIC] [TIFF OMITTED] 70527.216

[GRAPHIC] [TIFF OMITTED] 70527.217

[GRAPHIC] [TIFF OMITTED] 70527.218

[GRAPHIC] [TIFF OMITTED] 70527.219

[GRAPHIC] [TIFF OMITTED] 70527.220

[GRAPHIC] [TIFF OMITTED] 70527.221

[GRAPHIC] [TIFF OMITTED] 70527.223

[GRAPHIC] [TIFF OMITTED] 70527.224

[GRAPHIC] [TIFF OMITTED] 70527.225

[GRAPHIC] [TIFF OMITTED] 70527.226

[GRAPHIC] [TIFF OMITTED] 70527.227

[GRAPHIC] [TIFF OMITTED] 70527.228

[GRAPHIC] [TIFF OMITTED] 70527.229

[GRAPHIC] [TIFF OMITTED] 70527.230

[GRAPHIC] [TIFF OMITTED] 70527.231

[GRAPHIC] [TIFF OMITTED] 70527.232

[GRAPHIC] [TIFF OMITTED] 70527.233

[GRAPHIC] [TIFF OMITTED] 70527.234

[GRAPHIC] [TIFF OMITTED] 70527.235

[GRAPHIC] [TIFF OMITTED] 70527.236

[GRAPHIC] [TIFF OMITTED] 70527.237

[GRAPHIC] [TIFF OMITTED] 70527.238

[GRAPHIC] [TIFF OMITTED] 70527.239

[GRAPHIC] [TIFF OMITTED] 70527.240

[GRAPHIC] [TIFF OMITTED] 70527.241

[GRAPHIC] [TIFF OMITTED] 70527.242

[GRAPHIC] [TIFF OMITTED] 70527.243

[GRAPHIC] [TIFF OMITTED] 70527.244

[GRAPHIC] [TIFF OMITTED] 70527.245

[GRAPHIC] [TIFF OMITTED] 70527.246

[GRAPHIC] [TIFF OMITTED] 70527.247

[GRAPHIC] [TIFF OMITTED] 70527.248

[GRAPHIC] [TIFF OMITTED] 70527.249

[GRAPHIC] [TIFF OMITTED] 70527.250

[GRAPHIC] [TIFF OMITTED] 70527.251

[GRAPHIC] [TIFF OMITTED] 70527.252

[GRAPHIC] [TIFF OMITTED] 70527.253

[GRAPHIC] [TIFF OMITTED] 70527.254

[GRAPHIC] [TIFF OMITTED] 70527.255

[GRAPHIC] [TIFF OMITTED] 70527.256

[GRAPHIC] [TIFF OMITTED] 70527.257

[GRAPHIC] [TIFF OMITTED] 70527.258

[GRAPHIC] [TIFF OMITTED] 70527.259

[GRAPHIC] [TIFF OMITTED] 70527.260

[GRAPHIC] [TIFF OMITTED] 70527.261

[GRAPHIC] [TIFF OMITTED] 70527.262

[GRAPHIC] [TIFF OMITTED] 70527.263

[GRAPHIC] [TIFF OMITTED] 70527.264

[GRAPHIC] [TIFF OMITTED] 70527.265

[GRAPHIC] [TIFF OMITTED] 70527.266

[GRAPHIC] [TIFF OMITTED] 70527.267

[GRAPHIC] [TIFF OMITTED] 70527.268

[GRAPHIC] [TIFF OMITTED] 70527.269

[GRAPHIC] [TIFF OMITTED] 70527.270

[GRAPHIC] [TIFF OMITTED] 70527.271

[GRAPHIC] [TIFF OMITTED] 70527.272

[GRAPHIC] [TIFF OMITTED] 70527.273

[GRAPHIC] [TIFF OMITTED] 70527.274

[GRAPHIC] [TIFF OMITTED] 70527.275

[GRAPHIC] [TIFF OMITTED] 70527.276

[GRAPHIC] [TIFF OMITTED] 70527.277

[GRAPHIC] [TIFF OMITTED] 70527.278

[GRAPHIC] [TIFF OMITTED] 70527.279

[GRAPHIC] [TIFF OMITTED] 70527.280

[GRAPHIC] [TIFF OMITTED] 70527.281

[GRAPHIC] [TIFF OMITTED] 70527.282

[GRAPHIC] [TIFF OMITTED] 70527.283

[GRAPHIC] [TIFF OMITTED] 70527.284

[GRAPHIC] [TIFF OMITTED] 70527.285

[GRAPHIC] [TIFF OMITTED] 70527.286

[GRAPHIC] [TIFF OMITTED] 70527.287

[GRAPHIC] [TIFF OMITTED] 70527.288

[GRAPHIC] [TIFF OMITTED] 70527.289

[GRAPHIC] [TIFF OMITTED] 70527.290

[GRAPHIC] [TIFF OMITTED] 70527.291

[GRAPHIC] [TIFF OMITTED] 70527.292

[GRAPHIC] [TIFF OMITTED] 70527.293

[GRAPHIC] [TIFF OMITTED] 70527.294

[GRAPHIC] [TIFF OMITTED] 70527.295

[GRAPHIC] [TIFF OMITTED] 70527.296

[GRAPHIC] [TIFF OMITTED] 70527.297

[GRAPHIC] [TIFF OMITTED] 70527.298

[GRAPHIC] [TIFF OMITTED] 70527.299

[GRAPHIC] [TIFF OMITTED] 70527.300

[GRAPHIC] [TIFF OMITTED] 70527.301

[GRAPHIC] [TIFF OMITTED] 70527.302

[GRAPHIC] [TIFF OMITTED] 70527.303

[GRAPHIC] [TIFF OMITTED] 70527.304

[GRAPHIC] [TIFF OMITTED] 70527.305

[GRAPHIC] [TIFF OMITTED] 70527.306

[GRAPHIC] [TIFF OMITTED] 70527.307

[GRAPHIC] [TIFF OMITTED] 70527.308

[GRAPHIC] [TIFF OMITTED] 70527.309

[GRAPHIC] [TIFF OMITTED] 70527.310

[GRAPHIC] [TIFF OMITTED] 70527.311

[GRAPHIC] [TIFF OMITTED] 70527.312

[GRAPHIC] [TIFF OMITTED] 70527.313

[GRAPHIC] [TIFF OMITTED] 70527.314

[GRAPHIC] [TIFF OMITTED] 70527.315

[GRAPHIC] [TIFF OMITTED] 70527.316

[GRAPHIC] [TIFF OMITTED] 70527.317

[GRAPHIC] [TIFF OMITTED] 70527.318

[GRAPHIC] [TIFF OMITTED] 70527.319

[GRAPHIC] [TIFF OMITTED] 70527.320

[GRAPHIC] [TIFF OMITTED] 70527.321

[GRAPHIC] [TIFF OMITTED] 70527.322

[GRAPHIC] [TIFF OMITTED] 70527.323

[GRAPHIC] [TIFF OMITTED] 70527.324

[GRAPHIC] [TIFF OMITTED] 70527.325

[GRAPHIC] [TIFF OMITTED] 70527.326

[GRAPHIC] [TIFF OMITTED] 70527.327

[GRAPHIC] [TIFF OMITTED] 70527.328

[GRAPHIC] [TIFF OMITTED] 70527.329

[GRAPHIC] [TIFF OMITTED] 70527.330

[GRAPHIC] [TIFF OMITTED] 70527.331

[GRAPHIC] [TIFF OMITTED] 70527.332

[GRAPHIC] [TIFF OMITTED] 70527.333

[GRAPHIC] [TIFF OMITTED] 70527.334

[GRAPHIC] [TIFF OMITTED] 70527.335

[GRAPHIC] [TIFF OMITTED] 70527.336

[GRAPHIC] [TIFF OMITTED] 70527.337

[GRAPHIC] [TIFF OMITTED] 70527.338

[GRAPHIC] [TIFF OMITTED] 70527.339

[GRAPHIC] [TIFF OMITTED] 70527.340

[GRAPHIC] [TIFF OMITTED] 70527.341

[GRAPHIC] [TIFF OMITTED] 70527.342

[GRAPHIC] [TIFF OMITTED] 70527.343

[GRAPHIC] [TIFF OMITTED] 70527.344

[GRAPHIC] [TIFF OMITTED] 70527.345

[GRAPHIC] [TIFF OMITTED] 70527.346

[GRAPHIC] [TIFF OMITTED] 70527.347

[GRAPHIC] [TIFF OMITTED] 70527.348

[GRAPHIC] [TIFF OMITTED] 70527.349

[GRAPHIC] [TIFF OMITTED] 70527.350

[GRAPHIC] [TIFF OMITTED] 70527.351

[GRAPHIC] [TIFF OMITTED] 70527.352

[GRAPHIC] [TIFF OMITTED] 70527.353

[GRAPHIC] [TIFF OMITTED] 70527.354

[GRAPHIC] [TIFF OMITTED] 70527.355

[GRAPHIC] [TIFF OMITTED] 70527.356

[GRAPHIC] [TIFF OMITTED] 70527.357

[GRAPHIC] [TIFF OMITTED] 70527.358

[GRAPHIC] [TIFF OMITTED] 70527.359

[GRAPHIC] [TIFF OMITTED] 70527.360

[GRAPHIC] [TIFF OMITTED] 70527.361

[GRAPHIC] [TIFF OMITTED] 70527.362

[GRAPHIC] [TIFF OMITTED] 70527.363

[GRAPHIC] [TIFF OMITTED] 70527.364

[GRAPHIC] [TIFF OMITTED] 70527.365

[GRAPHIC] [TIFF OMITTED] 70527.366

[GRAPHIC] [TIFF OMITTED] 70527.367

[GRAPHIC] [TIFF OMITTED] 70527.368

[GRAPHIC] [TIFF OMITTED] 70527.369

[GRAPHIC] [TIFF OMITTED] 70527.370

[GRAPHIC] [TIFF OMITTED] 70527.371

[GRAPHIC] [TIFF OMITTED] 70527.372

[GRAPHIC] [TIFF OMITTED] 70527.373

[GRAPHIC] [TIFF OMITTED] 70527.374

[GRAPHIC] [TIFF OMITTED] 70527.375

[GRAPHIC] [TIFF OMITTED] 70527.376

[GRAPHIC] [TIFF OMITTED] 70527.377

[GRAPHIC] [TIFF OMITTED] 70527.378

[GRAPHIC] [TIFF OMITTED] 70527.379

[GRAPHIC] [TIFF OMITTED] 70527.380

[GRAPHIC] [TIFF OMITTED] 70527.381

[GRAPHIC] [TIFF OMITTED] 70527.382

[GRAPHIC] [TIFF OMITTED] 70527.383

[GRAPHIC] [TIFF OMITTED] 70527.384

[GRAPHIC] [TIFF OMITTED] 70527.385

[GRAPHIC] [TIFF OMITTED] 70527.386

[GRAPHIC] [TIFF OMITTED] 70527.387

[GRAPHIC] [TIFF OMITTED] 70527.388

[GRAPHIC] [TIFF OMITTED] 70527.389

[GRAPHIC] [TIFF OMITTED] 70527.390

[GRAPHIC] [TIFF OMITTED] 70527.391

[GRAPHIC] [TIFF OMITTED] 70527.392

[GRAPHIC] [TIFF OMITTED] 70527.393

[GRAPHIC] [TIFF OMITTED] 70527.394

[GRAPHIC] [TIFF OMITTED] 70527.395

[GRAPHIC] [TIFF OMITTED] 70527.396

[GRAPHIC] [TIFF OMITTED] 70527.397

[GRAPHIC] [TIFF OMITTED] 70527.398

[GRAPHIC] [TIFF OMITTED] 70527.399

[GRAPHIC] [TIFF OMITTED] 70527.400

[GRAPHIC] [TIFF OMITTED] 70527.401

[GRAPHIC] [TIFF OMITTED] 70527.402

[GRAPHIC] [TIFF OMITTED] 70527.403

[GRAPHIC] [TIFF OMITTED] 70527.404

[GRAPHIC] [TIFF OMITTED] 70527.405

[GRAPHIC] [TIFF OMITTED] 70527.406

[GRAPHIC] [TIFF OMITTED] 70527.407

[GRAPHIC] [TIFF OMITTED] 70527.408

[GRAPHIC] [TIFF OMITTED] 70527.409

[GRAPHIC] [TIFF OMITTED] 70527.410

[GRAPHIC] [TIFF OMITTED] 70527.411

[GRAPHIC] [TIFF OMITTED] 70527.412

[GRAPHIC] [TIFF OMITTED] 70527.413

[GRAPHIC] [TIFF OMITTED] 70527.414

[GRAPHIC] [TIFF OMITTED] 70527.415

[GRAPHIC] [TIFF OMITTED] 70527.416

[GRAPHIC] [TIFF OMITTED] 70527.417

[GRAPHIC] [TIFF OMITTED] 70527.418

[GRAPHIC] [TIFF OMITTED] 70527.419

[GRAPHIC] [TIFF OMITTED] 70527.420

[GRAPHIC] [TIFF OMITTED] 70527.421

[GRAPHIC] [TIFF OMITTED] 70527.422

[GRAPHIC] [TIFF OMITTED] 70527.423

[GRAPHIC] [TIFF OMITTED] 70527.424

[GRAPHIC] [TIFF OMITTED] 70527.425

[GRAPHIC] [TIFF OMITTED] 70527.426

[GRAPHIC] [TIFF OMITTED] 70527.427

[GRAPHIC] [TIFF OMITTED] 70527.428

[GRAPHIC] [TIFF OMITTED] 70527.429

[GRAPHIC] [TIFF OMITTED] 70527.430

[GRAPHIC] [TIFF OMITTED] 70527.431

[GRAPHIC] [TIFF OMITTED] 70527.432

[GRAPHIC] [TIFF OMITTED] 70527.433

[GRAPHIC] [TIFF OMITTED] 70527.434

[GRAPHIC] [TIFF OMITTED] 70527.435

[GRAPHIC] [TIFF OMITTED] 70527.436

[GRAPHIC] [TIFF OMITTED] 70527.437

[GRAPHIC] [TIFF OMITTED] 70527.438

[GRAPHIC] [TIFF OMITTED] 70527.439

[GRAPHIC] [TIFF OMITTED] 70527.440

[GRAPHIC] [TIFF OMITTED] 70527.441

[GRAPHIC] [TIFF OMITTED] 70527.442

[GRAPHIC] [TIFF OMITTED] 70527.443

[GRAPHIC] [TIFF OMITTED] 70527.444

[GRAPHIC] [TIFF OMITTED] 70527.445

[GRAPHIC] [TIFF OMITTED] 70527.446

[GRAPHIC] [TIFF OMITTED] 70527.447

[GRAPHIC] [TIFF OMITTED] 70527.448

[GRAPHIC] [TIFF OMITTED] 70527.449

[GRAPHIC] [TIFF OMITTED] 70527.450

[GRAPHIC] [TIFF OMITTED] 70527.451

[GRAPHIC] [TIFF OMITTED] 70527.452

[GRAPHIC] [TIFF OMITTED] 70527.453

[GRAPHIC] [TIFF OMITTED] 70527.454

[GRAPHIC] [TIFF OMITTED] 70527.455

[GRAPHIC] [TIFF OMITTED] 70527.456

[GRAPHIC] [TIFF OMITTED] 70527.457

[GRAPHIC] [TIFF OMITTED] 70527.458

[GRAPHIC] [TIFF OMITTED] 70527.459

[GRAPHIC] [TIFF OMITTED] 70527.460

[GRAPHIC] [TIFF OMITTED] 70527.461

[GRAPHIC] [TIFF OMITTED] 70527.462

[GRAPHIC] [TIFF OMITTED] 70527.463

[GRAPHIC] [TIFF OMITTED] 70527.464

[GRAPHIC] [TIFF OMITTED] 70527.465

[GRAPHIC] [TIFF OMITTED] 70527.466

[GRAPHIC] [TIFF OMITTED] 70527.467

[GRAPHIC] [TIFF OMITTED] 70527.468

[GRAPHIC] [TIFF OMITTED] 70527.469

[GRAPHIC] [TIFF OMITTED] 70527.470

[GRAPHIC] [TIFF OMITTED] 70527.471

[GRAPHIC] [TIFF OMITTED] 70527.472

[GRAPHIC] [TIFF OMITTED] 70527.473

[GRAPHIC] [TIFF OMITTED] 70527.474

[GRAPHIC] [TIFF OMITTED] 70527.475

[GRAPHIC] [TIFF OMITTED] 70527.476

      
=======================================================================


                         QUESTIONS AND ANSWERS

                           September 12, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 70527.195

                                   - 

</pre></body></html>
